No.
In the

Supreme Court of the United States
GRACE INTERNATIONAL ASSEMBLY OF GOD,
Petitioner,
v.
GENNARO FESTA AND FALCON GENERAL
CONSTRUCTION SERVICES, INC.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
Michael A. Haskel
Counsel of Record
Brandon M. Zlotnick
Law Offices of
Michael A. Haskel
167 Willis Avenue
Mineola, NY 11501
(516) 294-0250
haskelesq2@gmail.com
Counsel for Petitioner
296789

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Whether only the entity sustaining the greatest direct
injury may be considered a victim for the purposes of
determining if there is closed- or open-ended continuity
sufficient to establish a pattern of racketeering activity
under the Racketeer Influenced and Corrupt Organizations
Act, 18 U.S.C. §§ 1961-1968 (“RICO”)?
Whether racketeering activity committed for over two
years, that inflicts multiple, distinct injuries upon multiple
victims is nevertheless insufficient to form a pattern
under RICO if the defendant’s related schemes have the
primary goal of defrauding a limited number of victims,
or if the activity concerns an ongoing project between the
defendant and the primary victim?
Whether racketeering activity is insufficient to
fulfill the requirements of a RICO pattern of open-ended
continuity if it concerns two schemes that are “inherently
terminable”, regardless of how far into the future the
endpoint is, or how great the defendant’s incentive is to
postpone it continuously?
Whether, on a Fed. R. Civ. P. 12(b)(6) motion, courts
should dismiss a civil RICO claim for lack of openended continuity where the complaint does not imply
the racketeering activity would cease, the defendant has
consistently engaged in wire fraud and has also engaged
in money laundering and non-predicate criminal acts, and
the nature and extent of the defendant’s dealings with
clients other than the plaintiff is within the defendant’s
exclusive knowledge?

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Grace International Assembly of God.
The other parties are defendants-appellees Gennaro Festa
and Falcon General Construction Services, Inc.

iii
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT
Grace International Assembly of God has no parent
corporation, and there is no publicly held company that
owns ten percent (10%) or more of its stock.

iv
LIST OF RELATED PROCEEDINGS
The following cases are directly related to the case
in this Court:
Grace International Assembly of God v. Gennaro
Festa and Falcon General Construction Services, Inc.,
United States District Court, Eastern District of New
York, Case No. 17-CV-7090 (SJF) (AKT). Judgment was
entered on March 26, 2019.
Grace International Assembly of God v. Gennaro
Festa and Falcon General Construction Services, Inc.,
United States Court of Appeals for the Second Circuit,
Docket No. 19 -1101-cv. Judgment was entered on
December 30, 2019.
Grace International Assembly of God v. Gennaro
Festa and Falcon General Construction Services, Inc.,
Supreme Court of the State of New York, County of
Nassau, Index No. 607577/2019. No judgment has been
entered in this case.
People v. Gennaro Festa, Nassau County Court,
Criminal Term, Case No. 01692N-2019. Gennaro Festa has
pled guilty to a violation of N.Y. Penal Law § 190.65(1)(b),
scheme to defraud in the first degree. No judgment has
been entered yet, as Festa is awaiting sentencing.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RULE 2 9.6 CORPOR ATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
LIST OF RELATED PROCEEDINGS . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . x
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  xi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STAT EM EN T OF T H E BA SIS FOR
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES AND RULES INVOLVED IN THE
CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. The Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Grace’s Contract With Falcon . . . . . . . . . . . . . . . . 3
C. Festa’s Schemes . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

vi
Table of Contents
Page
1.

The Wire Fraud Scheme . . . . . . . . . . . . . . . . 3

2.

The Money Laundering Scheme  . . . . . . . . . 7

D. The Pattern of Racketeering Activity . . . . . . . . . 9
E. The Six Victims of Festa’s Pattern of
Racketeering . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
F.

Procedural History  . . . . . . . . . . . . . . . . . . . . . . . 11

REASONS FOR GRANTING THE PETITION . . . . 14
PRELIMINARY STATEMENT  . . . . . . . . . . . . . . . 14
POINT I
T H E SECON D CIRCU I T ORDER
CONFLICTS WITH SUPREME COURT
AND OTHER CIRCUITS’ CASELAW ON
WHO IS CONSIDERED A RACKETEERING
VICTIM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
POINT II
THE SECOND CIRCUIT ORDER REFLECTS
A PRONOUNCED SPLIT AMONG CIRCUITS
ON WHAT CIRCUMSTANCES PRECLUDE
FINDING RICO CONTINUITY . . . . . . . . . . . . . . . 19
A. H.J. Inc. as the Starting Point . . . . . . . . . . . . . . 19

vii
Table of Contents
Page
B. The Circuit Courts Have Splintered
on What Factors Preclude Continuity . . . . . . . . 20
1.

Closed-Ended Continuity  . . . . . . . . . . . . . . 21
a. Fo u r C i r c u i t s I m p o s e t h e
Goal Restriction, Apparently
Even If There A re Multiple
Injuries . . . . . . . . . . . . . . . . . . . . . . . . . . 21
b. Two Circuits Impose the Single
Scheme/Victim Restriction . . . . . . . . . 22
c.

At Least Three Circuits Hold
Inf liction of Multiple Injuries
Upon a Plaintiff, in Pursuit of
the Same Object or Scheme, Is
Sufficient . . . . . . . . . . . . . . . . . . . . . . . . . 23

d. The Fifth Circuit Imposes the
Transaction Restriction . . . . . . . . . . . . 24
e.

2.

The First Circuit and Second Circuit
Order Impose the Goal, Single
Scheme/Victim, and Transaction
Restrictions, and Preclude ClosedEnded Continuity Even If Multiple
Injuries Are Inflicted . . . . . . . . . . . . . . 25

C i r c u it Cou r t s Have Si m i l a rly
Splintered in Imposing Restrictions
Upon Open-Ended Continuity  . . . . . . . . . . 26

viii
Table of Contents
Page
C. An Expansive Approach to Considering the
Number of Victims, Injuries, and Transactions
i n Det er m i n i ng Closed- a nd OpenEnded Continuity Should Prevail  . . . . . . . . . . . 26
POINT III
WHETHER A SCHEME’S “INHERENTLY
T ER M I NA BL E ” NA T U R E P ER S E
PRECLUDES OPEN-ENDED CONTINUITY
IS THE SUBJECT OF A CIRCUIT SPLIT . . . . . 29
POINT IV
T H E SECON D CIRCU I T ORDER
CONFLICTS WITH OTHER CIRCUITS
ON REQUIREMENTS FOR PLEADING
A N TICI PAT ED CON TINUATION OF
RACKETEERING ACTIVITY . . . . . . . . . . . . . . . . 30
A. Multiple Circuits Have Granted Civil
RICO Plaintiffs Favorable Inferences as
to Open-Ended Continuity That Were
Denied Grace  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
B. The Second Circuit’s Holding That a
Defendant’s Consistent Past Conduct Cannot
Serve as a Basis to Anticipate Future Conduct,
Conflicts with Four Other Circuits  . . . . . . . . . . 33
C. The Second Circuit Not Only Denied Grace
Favorable Inferences, It Disregarded
Grace’s Factual Allegations  . . . . . . . . . . . . . . . . 34

ix
Table of Contents
Page
D. Requir ing RICO Plaintiffs to Plead
Defenda nt s’ Ra cket eer i ng Conduct
Towards Others Is Counter to Other
Circuits’ Precedent and Disregards the
Dismissal Motion Rule That Plaintiffs Be
Granted Favorable Inferences . . . . . . . . . . . . . . 35
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

x
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
DECEMBER 30, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — MEMORANDUM AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT
OF NEW YORK, FILED MARCH 26, 2019 . . . . . . 9a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED FEBRUARY 12, 2020  . . . . . . . . . . . . . . . . 33a
APPENDIX D — STATUTORY PROVISIONS
A N D F EDER A L C OU RT RU L E S
INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35a

xi
TABLE OF CITED AUTHORITIES
Page
CASES
Abraham v. Singh,
480 F.3d 351 (5th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 31
Al-Abood ex rel. Al-Abood v. El-Shamari,
217 F.3d 225 (4th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 21
Anza v. Ideal Steel Supply Corp.,
547 U.S. 451 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Arista Records, LLC v. Doe 3,
604 F.3d 110 (2d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 36
Barticheck v. Fidelity Union Bank/
First Nat’l State,
832 F.2d 36 (3d Cir. 1987) . . . . . . . . . . . . . . . . . . . . . . 27
Blue Cross & Blue Shield of Michigan v. Kamin,
876 F.2d 543 (6th Cir. 1989) . . . . . . . . . . . . . . . . . 27, 32
Boone v. Carlsbad Bancorporation, Inc.,
972 F.2d 1545 (10th Cir. 1992) . . . . . . . . . . . . . . . . . . 28
Bridge v. Phoenix Bond & Indem. Co.,
553 U.S. 639 (2008) . . . . . . . . . . . . . . . . . . 14, 15, 28, 37
Brown v. Cassens Transport Co.,
546 F.3d 347 (6th Cir. 2008) . . . . . . . . . . . 22, 26, 31, 34

xii
Cited Authorities
Page
Crawford v. Franklin Credit Mgmt. Corp.,
758 F.3d 473 (2d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 25
CVLR Performance Horses, Inc. v. Wynne,
524 Fed. Appx. 924 (4th Cir. 2013)  . . . . . . . . . . . 31, 33
Deppe v. Tripp,
863 F.2d 1356 (7th Cir. 1988) . . . . . . . . . . . . . . . . . . .  17
Edmondson & Gallagher v.
Alban Towers Tenants Ass’n,
48 F.3d 1260 (D.C. Cir. 1995) . . . . . . . . . . . . . . . . 23, 28
Efron v. Embassy Suites (Puerto Rico), Inc.,
223 F.3d 12 (1st Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 29
Fujisawa Pharmaceutical Co., Ltd. v. Kapoor,
115 F.3d 1332 (7th Cir. 1997) . . . . . . . . . . . . . . . . 23, 24
Gonzalez-Morales v. Hernandez-Arencibia,
221 F.3d 45 (1st Cir. 2000)  . . . . . . . . . . . . . . . . . . . . . 26
Grace International Assembly of God v. Festa,
797 Fed. Appx. 603 (2d Cir. 2019) . . . . . . . . . . . . . . . . 1
Grace International Assembly of God v. Festa,
No. 17-CV-7090 (SJF) (AKT), 2019 WL 1369000
(E.D.N.Y. Mar. 26, 2019) . . . . . . . . . . . . . . . . . . . . . . . . 1
H.J. Inc. v. Northwestern Bell Telephone Co.,
492 U.S. 229 (1989) . . . . . . . . . . . . . . . . . . . . . . . passim

xiii
Cited Authorities
Page
Hall v. Witteman,
584 F.3d 859 (10th Cir. 2009) . . . . . . . . . . . . . . . . . . . 22
Hamilton v. Sikorsky Aircraft Corp.,
760 Fed Appx. 872 (11th Cir. 2019) . . . . . . . . . . . . . . 35
Handeen v. Lemaire,
112 F.3d 1339 (8th Cir. 1997) . . . . . . . . . . . . . . . . . . . 23
Heinrich v. Waiting Angels Adoption
Services, Inc.,
668 F.3d 393 (6th Cir. 2012) . . . . . . . . . . . . . . 31, 33, 34
Holmes v. Secs. Investor Protection Corp.,
503 U.S. 258 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Home Orthopedics Corp. v. Rodriguez,
781 F.3d 521 (1st Cir. 2015)  . . . . . . . . . . . . . . . . . 25, 26
Ikuno v. Yip,
912 F.2d 306 (9th Cir. 1990) . . . . . . . . . . . . . . . . . 32, 36
Jackson v. BellSouth Telecommunications,
372 F.3d 1250 (11th Cir. 2004) . . . . . . . . . . . . . . . . . . 22
Just Film, Inc. v. Buono,
847 F.3d 1108 (9th Cir. 2017)  . . . . . . . . . . . . . . . .  16, 17
Kearney v. Foley & Lardner, LLP,
607 Fed. Appx. 757 (9th Cir. 2015)  . . . . . . . . . . . . . . 23

xiv
Cited Authorities
Page
Living Designs, Inc. v.
E.I. Dupont de Nemours & Co.,
431 F.3d 353 (9th Cir. 2005), cert. denied,
547 U.S. 1192 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Loreley Fin. (Jersey) No. 3 Ltd. v.
Wells Fargo Sec., LLC,
797 F.3d 160 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 35
Maiz v. Virani,
253 F.3d 641 (11th Cir. 2001) . . . . . . . . . . . . . . . . . . .  17
McDonald v. Schencker,
18 F.3d 491 (7th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 29
Menzies v. Seyfarth Shaw LLP,
943 F.3d 328 (7th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 33
Moon v. Harrison Piping Supply,
465 F.3d 719 (6th Cir. 2006) . . . . . . . . . . . . . . . . . . . . 21
Potomac Elec. Power Co. v.
Elec. Motors & Supply, Inc.,
262 F.3d 260 (4th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 18
RWB Services, LLC v.
Hartford Computer Group, Inc.,
539 F.3d 681 (7th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 16
Resolution Trust Corp. v. Stone,
998 F.2d 1534 (10th Cir. 1993) . . . . . . . . . . . . . . . . . . 35

xv
Cited Authorities
Page
Rotella v. Wood,
528 U.S. 549 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Russello v. United States,
464 U.S. 16 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Sedima, S.P.R.L. v. Imrex Co.,
473 U.S. 479 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . 14, 37
Sever v. Alaska Pulp Corp.,
978 F.2d 1529 (9th Cir. 1992) . . . . . . . . . . . . . . . . . . . 24
Shields Enterprises, Inc. v. First Chicago Corp.,
975 F.2d 1290 (7th Cir. 1992) . . . . . . . . . . . . . . . . 32, 36
Sil-Flo, Inc. v. SFHC, Inc.,
917 F.2d 1507 (10th Cir. 1990)  . . . . . . . . . . . . . . . . . . 22
Sun Sav. & Loan Ass’n v. Dierdorff,
825 F.2d 187 (9th Cir. 1987) . . . . . . . . . . . . . . . . . . . . 21
Tabas v. Tabas,
47 F.3d 1280 (3d Cir. 1995) (en banc)  . . . . . . 23, 26, 27
Tal v. Hogan,
453 F.3d 1244 (10th Cir. 2006) . . . . . . . . . . . . . . . . . . 35
Tellis v. U.S. Fid. & Guar. Co.,
826 F.2d 477 (7th Cir. 1986) . . . . . . . . . . . . . . . . . . . . 25

xvi
Cited Authorities
Page
Town of Kearny v.
Hudson Meadows Urban Renewal Corp.,
829 F.2d 1263 (3d Cir. 1987) . . . . . . . . . . . . . . . . . . . .  17
Uniroyal Goodrich Tire Co. v.
Mutual Trading Corp.,
63 F.3d 516 (7th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 23
United HealthCare Corp. v. Am. Trade Ins. Co.,
88 F.3d 563 (8th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 18
United States v. Baker,
598 Fed. Appx. 165 (4th Cir. 2015) . . . . . . . . . . . . . . .33
United States v. Busacca,
926 F.2d 232 (6th Cir. 1991) . . . . . . . . . . . . . . . . . 30, 33
United States v. Coiro,
922 F.2d 1008 (2d Cir. 1991) . . . . . . . . . . . . . . . . . . . . 34
United States v. Hively,
437 F.3d 752 (8th Cir. 2006) . . . . . . . . . . . . . . . . . 23, 26
United States v. O’Connor,
910 F.2d 1466 (7th Cir. 1990)  . . . . . . . . . . . . . . . . . . . 33
United States v. Palumbo Brothers, Inc.,
145 F.3d 850 (7th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 34
United States v. Richardson,
167 F.3d 621 (D.C. Cir. 1999) . . . . . . . . . . . . . . . . . . . 33

xvii
Cited Authorities
Page
Vemco, Inc. v. Camardella,
23 F.3d 129 (6th Cir. 1994) . . . . . . . . . . . . . . . . . . 22, 29
Word of Faith World Outreach Center
Church, Inc. v. Sawyer,
90 F.3d 118 (5th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 24
STATUTES
18 U.S.C. § 1956  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
18 U.S.C. § 1962(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 19
18 U.S.C. § 1964(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
18 U.S.C. §§ 1961-1968 . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1367(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . 12, 31, 32, 35
New York Lien Law § 70 . . . . . . . . . . . . . . . . . . . . . . . . . . 7
New York Lien Law § 71 . . . . . . . . . . . . . . . . . . . . . . . . . . 7
New York Lien Law § 72 . . . . . . . . . . . . . . . . . . . . . . . . . . 7

xviii
Cited Authorities
Page
New York Lien Law § 79-a  . . . . . . . . . . . . . . . . . . . . . . . . 9
New York Penal Law § 155.30 . . . . . . . . . . . . . . . . . . . . . . 9
New York Penal Law § 210.05 . . . . . . . . . . . . . . . . . . . . . . 6
O r g a n i z e d C r i m e C ont r ol A c t of 19 70 ,
Title IX, Pub. L. 91-452, 84 Stat. 941 . . . . . . . . . . . . 14
OTHER AUTHORITIES
Note, Bart A. Karwath, Has the Constituency
of C ont i nu it y P lu s R e l a t i on s h ip P ut
an End to RICO’s Pattern of Confusion?,
18 Am. J. Crim. L. 201 (Winter 1991) . . . . . . . . . . . . 15
S. Rep. No. 91-617, p. 158 (1969) . . . . . . . . . . . . . . . . . . . 19
Black’s Law Dictionary . . . . . . . . . . . . . . . . . . . . . . . . . . 35

1
OPINIONS BELOW
The opinion of the United States Court of Appeals for
the Second Circuit, Grace International Assembly of God
v. Festa, 797 Fed. Appx. 603 (2d Cir. 2019), is reprinted
in the Appendix to the Petition (“App.”) at 1a-8a. The
Second Circuit order denying rehearing and rehearing
en banc is unreported and is reprinted at App. 33a-34a.
The Memorandum and Order of the United States
District Court, Eastern District of New York, issued on
March 26, 2019, is unreported, but is available at Grace
International Assembly of God v. Festa, No. 17-CV-7090
(SJF) (AKT), 2019 WL 1369000 (E.D.N.Y. Mar. 26, 2019),
and is reprinted at App. 9a-32a.
STATEMENT OF THE BASIS FOR JURISDICTION
The order of the United States Court of Appeals
sought to be reviewed was entered on December 30, 2019.
The order denying petitioner’s motion for rehearing and
rehearing en banc was entered on February 12, 2020. This
Court has jurisdiction to review, on a writ of certiorari,
the order in question pursuant to 28 U.S.C. § 1254(1). By
order dated March 19, 2020, the Supreme Court extended,
to 150 days after an order denying a timely motion for
rehearing, the deadline to file a petition for a writ of
certiorari due on or after March 19, 2020, so that the new
deadline is July 13, 2020.
STATUTES AND RULES INVOLVED
IN THE CASE
The following statutes and rules involved in this case
are reproduced at App. 35a-46a:

2
18 U.S.C. § 1961(1) and (5)
18 U.S.C. § 1962(c)
18 U.S.C. § 1964(c)
18 U.S.C. § 1343
18 U.S.C. § 1956
Fed. R. Civ. P. 12(b)(6)
N.Y. Lien Law § 70
N.Y. Lien Law § 71
N.Y. Lien Law § 72
N.Y. Lien Law § 79-a
N.Y. Penal Law § 155.30
N.Y. Penal Law § 210.05
STATEMENT OF THE CASE
The following is a summary of pertinent portions of
the Amended Complaint (District Court Docket [“Dkt.”]
22) (“AC”), 1 and is intended to summarize detailed
pleading allegations.
A. The Parties
Petitioner Grace International Assembly of God
(“Grace”) is a New York religious corporation located at
172 Willis Avenue, Mineola, New York (“Premises”) (AC
¶ 1).
Respondent Falcon General Construction Services,
Inc. (“Falcon”), a New York corporation (AC ¶ 3), is
a general construction contractor (AC ¶ 4) under the
control of Respondent Gennaro Festa (“Festa”), Falcon’s
President and sole shareholder (AC ¶ 5).
1. References to the Amended Complaint shall be in the
form of “AC ¶ __.”

3
B. Grace’s Contract With Falcon
Falcon agreed with Grace to perform construction
services (“Project”) on the Premises. (AC ¶ 9.) Grace
entered into a written contract with Falcon (Dkt. 22-1)
(the “Contract”), summarizing the Project’s scope (see
AC ¶ 10). Contract payments were made based upon the
cost of materials purchased and the percentage of the
work completed as to each Project item. (See AC ¶¶ 11154; Dkt. 22-2.)
C. Festa’s Schemes
Utilizing his control over Falcon, Festa perpetrated
two interrelated fraudulent schemes, of which Grace and
at least five others were victims. In the first scheme (“Wire
Fraud Scheme”), Festa committed predicate acts of wire
fraud involving the payment of Falcon’s fraudulent Project
billings. In the second scheme (“Money Laundering
Scheme”), Festa engaged in money laundering involving
diversion and concealment of trust funds.
1.

The Wire Fraud Scheme

Festa’s Wire Fraud Scheme defrauded Grace into
paying for materials and services that were either never
purchased or performed at all, or were purchased or
performed to a materially lesser degree than Festa
had represented. This scheme was effectuated through
predicate acts of wire fraud that Festa committed during
the 29-month period from March 2014 through August
2016.

4
Festa first made fraudulent oral and w ritten
misrepresentations to Grace as to the necessity of a
$24,500 advance payment to Falcon in exchange for
providing steel shop drawings for the Project (“Steel
Shop Drawings”), which payment Festa misrepresented
would be forwarded to American Buildings Company
(“ABC”). (AC ¶¶ 18(a), (c)-(d), 19). Actually, ABC required
no payment up front (AC ¶ 20(a)), and Festa paid to ABC
only $6,000 of the $24,500 that Grace paid to Falcon (AC
¶¶ 20(b), 23, 24).
The first wire fraud act occurred on March 22, 2014,
when the Steel Shop Drawings were sent by interstate
wire from ABC’s Georgia office, to the New York office of
an agent of Festa and Falcon’s. (AC ¶¶ 20(a), 26, 211). The
Steel Shop Drawings were essential to the Wire Fraud
Scheme, because the Project’s architect needed them to
prepare building designs. (AC ¶ 213.)
In 2014 and 2015, Falcon provided four fraudulent
invoices to Grace. Then, from August 2015 to August
2016, Falcon provided Grace with eleven bills in the form
of Applications and Certificates for Payment (“A&Cs”).
(See Dkt. 22-2.) Each A&C purportedly represented
work performed, and materials provided, during a set
period of time (the “A&C Period”). Each A&C contained
misrepresentations as to materials purchased and labor
performed. (AC ¶¶ 16, 241.)
Festa made misrepresentations concerning eleven
separate Project items, including, inter alia, Steel
Shop Drawings (see AC ¶¶ 20-27); building frame steel
(“Building Frame Steel”) and mezzanine steel that were
never provided (see AC ¶¶ 28-46, 56-60); and first floor

5
steel that was only partially delivered and installed,
not completely as Festa claimed (see AC ¶¶ 47-55) (see
also AC ¶¶ 61-154 [discussing other items that were
misrepresented]).
Each A&C set forth the amounts (a) paid for each
Project item, prior to the A&C Period (column D) and
(b) payable during the A&C Period (column E). In the
next A&C, the sum of the figures in columns D and E
for each item were carried over into column D. (See Dkt.
22-2 passim.) Thus, each A&C built incrementally upon
misrepresentations in the immediately preceding A&C,
causing the accumulation of the frauds over the entire
Project. Since there were misrepresentations in the first
A&C, A&C 1 (see AC ¶¶ 69, 71, 81, 83, 93-94, 99-100, 10506, 111, 118, 121), all subsequent A&Cs repeated these
historic misrepresentations; additionally, in six of the ten
subsequent A&Cs, new misrepresentations were made
as to work performed or materials supplied during the
subject A&C Period. (See AC ¶¶ 125-26 [A&C 4], 131-32
[A&C 5], 87-88, 137-38 [A&C 8], 75-76 [A&C 9], 143-44
[A&C 10], 41-42, 49-50, 56-57, 149-50 [A&C 11].)
In each A&C, Festa swore:
the Work covered by this Application for
Payment has been completed in accordance
with the Contract Documents, that all amounts
have been paid by the Contractor for Work for
which previous certificates for Payment were
issued and payments received from the Owner,
and that current payment shown therein is now
due.

6
(AC ¶ 15; see also Dkt. 22-2 passim.) Festa perjured
himself by falsely verifying that work had been performed,
or materials been supplied, to the extent misrepresented
in each A&C, and that Falcon had fully paid subcontractors
for work or suppliers for materials for which Grace had
paid based on prior A&Cs. (See AC ¶ 16.) See N.Y. Penal
Law § 210.05 (setting forth elements of perjury).
Festa’s w i re fraud was accompanied by oral
misrepresentations to Grace as to the Steel Shop
Drawings (AC ¶¶ 18, 20), and the purported need for Grace
to pay $116,760 in advance for Building Frame Steel that
Falcon never purchased or installed (AC ¶¶ 28-40). The
dozen acts of wire fraud which occurred between May
2015 and August 2016 furthered Grace’s efforts to obtain
funds from interstate sources to pay the inflated bills.
These acts consisted of interstate wire transmissions
between Grace in New York and either AG Financial in
Missouri (“AG”), an umbrella company that held money
for Grace (AC ¶ 214(a)), or Heritage Investment Services
Fund (“Heritage”) in Pennsylvania, which lent money to
Grace to finance the Project (AC ¶¶ 159, 214(b)).
Grace sent both AG and Heritage interstate facsimile
transmissions requesting funds, and also sent Heritage,
via interstate facsimile, A&Cs 2-11, which were wired
in three batches and provided justification for Grace’s
requests (AC ¶¶ 214(a)-(b), 222). In response, the
institutions sent, over interstate wires, the requested
funds to Grace’s New York bank account (AC ¶ 215(a)-(b)).
Grace then used those funds to pay Falcon what Festa had
misrepresented was due. (See AC ¶¶ 220-222.) These wire
transactions, and Grace’s payments to Falcon, continued
until Grace discovered the Money Laundering Scheme,

7
as defined and discussed below. The last predicate act of
wire fraud occurred on August 23, 2016 (AC ¶ 215(b)(iii)),
approximately 29 months after the first.
Because the Project was paid on progress billings,
the Wire Fraud Scheme inf licted multiple, distinct
injuries. Each payment to Falcon based on Festa’s
misrepresentations inflicted a distinct injury. Grace
made seven pay ment s of A&Cs cont a i n i ng new
misrepresentations. (See AC ¶¶ 121 [A&C 1]; 129 [A&C
4]; 135 [A&C 5]; 91, 141 [A&C 8]; 79 [A&C 9]; 48, 147 [A&C
10]; 45, 54, 153 [A&C 11].)
2.

The Money Laundering Scheme

The Money Laundering Scheme proceeded in three
phases: (1) Falcon’s obtaining, from the Wire Fraud
Scheme, trust funds that were deposited into Falcon’s bank
account (“Account”), which Festa controlled; (2) Falcon’s
failure to pay subcontractors for materials furnished and
work performed; and (3) Festa’s illegal withdrawal of the
trust funds from the Account, disguising and concealing
their ultimate use.
Falcon was required to hold funds received from Grace
in trust for supplier Ace-Tec Enterprises Inc. (“Ace-Tec”),
and subcontractors Amano Contracting, Inc. (“Amano”),
and Liberty Pipe, Inc. (“Liberty”) (collectively, Ace-Tec,
Amano, and Liberty are the “Subcontractors”), which
Falcon was required to pay, under both the Contract
and New York Lien Law §§ 70-72 (AC ¶¶ 224-226), and
which Festa falsely swore, in each A&C, had been paid
to the extent Falcon had previously billed Grace for their
work (AC ¶ 15). Festa used his control of the Account to

8
withdraw and disguise the funds’ disposition (AC ¶¶ 226,
228, 231, 238). Falcon never paid Amano and Liberty
Pipe (AC ¶¶ 178, 199), and paid Ace-Tec only $30,000 out
of $79,900 due (see AC ¶ 188).
For each Subcontractor, Grace alleged separate
details as to the agreed work, its performance, the
amounts the Subcontractor was supposed to be paid and
was paid, and the outstanding balance due. To illustrate,
as to Amano, which fully performed “demolition/removal”
and “excavation/removal” work (AC ¶¶ 169, 177; see AC
¶ 155), Festa billed Grace for work performed (see AC
¶¶ 170-77), Grace paid Falcon for same (AC ¶ 175); and
Falcon submitted subsequent A&Cs falsely swearing
(AC ¶ 178) that Amano had been paid for its work (see AC
¶ 176), but Amano received no such payments (AC ¶ 178).
Festa repeated the same method with respect to Ace-Tec
(AC ¶¶ 181-89) and Liberty (AC ¶¶ 191-200).
Account funds withdrawals constituted money
laundering under 18 U.S.C. § 1956, because Festa
misappropriated the trust funds and concealed and
disguised their nature, location, source, ownership, and
control. (AC ¶¶ 233-38.) Festa told Grace that Falcon did
not have any money to pay subcontractors (AC ¶ 228(a)).
However, absent Festa’s misappropriation of trust funds,
there would have been at least $123,900 in the Account,
the minimum amount of trust fund withdrawals. (See
AC ¶¶ 156, 178, 188.) To Subcontractors and others,
Festa misrepresented that Falcon could not pay them
because Grace had not paid Falcon. (AC ¶ 228(d).) This
misrepresentation concealed that Grace’s payments for
Subcontractors’ services had been misappropriated.

9
Subcontractors were therefore victims of the Money
Laundering Scheme. (AC ¶¶ 179, 189, 200-202.) Amano
filed a mechanic’s lien against the Premises. (AC ¶ 157.)
Grace stopped paying Falcon upon discovering Falcon’s
failure to pay Amano (AC ¶ 162), and Falcon ceased all
Project work (see AC ¶ 158). Therefore, Falcon’s failure to
pay Subcontractors was a part of the fraud that ultimately
resulted in injury to Grace through the Project’s delay.
(AC ¶ 246.)
Festa’s misappropriations of trust funds also
constituted larceny under N.Y. Lien Law § 79-a (AC ¶ 230);
given the amounts owed to each Subcontractor exceeded
$1,000, the crime involved at least felonious grand larceny
in the fourth degree under N.Y. Penal Law § 155.30 (AC
¶¶ 231-32).
D. The Pattern of Racketeering Activity
The AC sets forth the nexus between the predicate
acts, the repetitious manner of their commission, their
timing, and their furtherance of related schemes. (AC
¶¶ 239-246.) The racketeering acts were neither random
nor sporadic. Rather, they were part of a pattern.
The predicate acts occurred for a period exceeding two
years (AC ¶ 240), and, had the scheme not been discovered,
there was a threat that Festa would have committed
future acts of racketeering (AC ¶¶ 241-44). As support
for alleging predicate acts were “the means by Falcon’s
business was regularly operated,” the AC alleges “the
misrepresentations were made with regard to all eleven
(11) [A&Cs] that Festa submitted to Grace with regard
to the Project, and in multiple oral representations….”
(AC ¶ 241.)

10
Grace pled, in detail, the basis for expecting that
Festa would have continued committing predicate acts
had Grace not discovered Festa’s fraudulent schemes.
Festa continued to make misrepresentations in A&Cs, and
to commit wire fraud, “through the time Grace last paid
Falcon in August 2016.” (AC ¶ 242.) “Festa’s racketeering
activity ended only because Grace discovered Falcon’s
fraud and nonperformance and terminated Falcon.” (AC
¶ 243.) Because the Project was only 38.5% complete at
the time Grace terminated Falcon, at the rate Falcon was
progressing, the Project would have taken approximately
three and a half more years to complete. (See id.) Similar
predicate acts would have continued had Falcon continued
the Project; Grace would have continued to request funds
from interstate wire transfers to make payment (id.);
and Festa would have continued to engage in wire fraud
and money laundering in the same manner as before (AC
¶ 244). Festa could be expected to continue his predicate
acts because he had consistently engaged in fraudulent
conduct and money laundering throughout the Project and
there was no reason to believe he would have changed his
conduct. (Id.)
In addition, it could reasonably be inferred that the
nature of the racketeering acts anticipated the need to
continue the fraud. Project overbilling from the inception
necessitated future frauds to cover up the schemes and to
provide Falcon with the means of paying subcontractors
enough money to continue with the Project, while failing
to pay at least some the amount owed. The nature and
number of the predicate acts, and accompanying state
crimes, showed Festa’s willingness to use Falcon as a
RICO enterprise, and his proclivity for criminal behavior.

11
E. The Six Victims of Festa’s Pattern of Racketeering
Grace alleged that the two interrelated schemes had a
total of six victims: (1) Grace, victimized as set forth above;
(2)-(4) Amano (AC ¶ 179), Ace Tec (AC ¶ 189), and Liberty
(AC ¶ 200), each suffering from money laundering of funds
it was supposed to be paid; (5) Heritage, which lent Grace
funds for the Project in reliance on the fraudulent A&Cs
(AC ¶ 222), and which Grace has been unable to pay back
because of Grace’s weakened financial condition resulting
from the fraud (AC ¶ 246); and (6) ABC, which did not
receive the profit it would have, had Falcon purchased
materials from ABC as Festa represented (AC ¶¶ 20(a)(b), 28-29, 40, 245).
F. Procedural History
The original summons and complaint were filed in
United States District Court, Eastern District, New
York. Federal jurisdiction in the district court, over
Grace’s claim under the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), 18 U.S.C. §§ 1961-1968, arose
under 28 U.S.C. § 1331 and 18 U.S.C. § 1964(c). Jurisdiction
over the pendent state claims asserted arose under 28
U.S.C. § 1367(a).
D efend a nt s Fe st a a nd Fa lcon (col le c t i vely,
“Defendants”) initially defaulted, but after Grace obtained
a certificate of default, Defendants successfully moved
to vacate. Grace then filed the AC, asserting one RICO
claim under 18 U.S.C. §§ 1962(c) and 1964(c), and pendent
state claims.

12
Defendants filed a pre-answer Fed. R. Civ. P. 12(b)
(6) motion to dismiss the AC. By order entered March 26,
2019, the District Court (per Hon. Sandra J. Feuerstein,
U.S.D.J.) granted Defendants’ motion, finding relatedness
but not continuity, and dismissing the civil RICO claim
with prejudice, and dismissing without prejudice the
pendent state claims (the “District Court Order”). (App.
9a-32a.)
On April 22, 2019, Grace timely filed a notice of appeal
from the District Court Order to the United States
Court of Appeals for the Second Circuit. (Dkt. 32.) By
summary order dated December 30, 2019 (the “Second
Circuit Order”), a panel of the Second Circuit affirmed,
without disagreeing with the District Court’s finding of
relatedness, but opining that Grace had failed to plead
either closed-ended or open-ended continuity for a pattern
of racketeering activity. The Second Circuit found that
although Grace had alleged two schemes injuring six
entities, “[a]t bottom, the RICO scheme alleged in the
complaint had the limited goal of defrauding Grace”
and thus “d[id] not support a finding of closed-ended
continuity.” (App. 5a-6a.) Although recognizing openended continuity where the acts of the defendant or the
enterprise are inherently unlawful and in pursuit of
inherently unlawful goals, the Second Circuit concluded
Grace failed to allege this. (App. 6a-7a.) The Second
Circuit also recognized open-ended continuity where the
enterprise primarily conducts a legitimate business, but
only when “there is some evidence from which it may be
inferred that the predicate acts were the regular way of
operating that business, or that the nature of the predicate
acts themselves implies a threat of continued criminal
activity.” (App. 6a [internal quotation marks and citations
omitted].) However, the Second Circuit found Grace had
failed to allege this adequately:

13
Although Grace conclusorily alleges that
the predicate acts were the means by which
Falcon, a construction company, “regularly
operated,” AC ¶ 241, it points only to its own
limited interactions with Festa in support
of that contention, AC ¶ 241. At best, Grace
alleges conclusorily and speculatively that the
“nature of the predicate acts implied a threat
of continuing activity” because “[t]he Project
remained incomplete and similar predicate acts
could continue to occur,” AC ¶ 242, since the
contract was only “38.5% complete,” AC ¶ 243.
… Even accepting that the project remained
unfinished, Grace’s construction project was
ultimately terminable, and Grace has offered
no other facts to suggest the activities would
continue in the future.
(App. 7a [citation omitted].)
The Second Circuit then stated, apparently regarding
both closed-ended and open-ended continuity, “While
Grace attempts to magnify the racketeering scheme by
expanding the number of victims and predicate acts, in
reality this is one scheme with one clear victim. That is
clearly insufficient to establish a pattern for the purposes
of RICO.” (App. 7a [citations and quotation omitted].)
The Second Circuit affirmed the District Court Order.
On January 13, 2020, Grace timely moved for panel
rehearing and rehearing en banc. (Circuit Court Docket
No. 66.) Both motions were denied on February 12, 2020.
(App. 33a-34a.)

14
REASONS FOR GRANTING THE PETITION
PRELIMINARY STATEMENT
Several issues raised by the Second Circuit Order are
the subject of sharp divisions among the federal circuits.
These include the holding that a RICO claim does not lie
where “at bottom” there was a limited goal of defrauding
one entity, and there was one scheme with “one clear
victim.” Another circuit conflict arises from the Second
Circuit Order’s reasoning that there is no open-ended
continuity where the scheme is “ultimately terminable.”
In addition, the Second Circuit, in holding that Grace
made only conclusory allegations as to continuation in the
future, undermines well-settled precedent that pleadings,
including those for RICO violations, be liberally construed.
This Court has repeatedly rejected civil RICO
defendants’ invitations “to adopt narrowing constructions
of RICO in order to make it conform to a preconceived
notion of what Congress intended to proscribe.” Bridge
v. Phoenix Bond & Indem. Co., 553 U.S. 639, 660 (2008)
(collecting cases) (rejecting argument that RICO be
interpreted to require first-party reliance to exclude
“garden-variety disputes”) (citation and internal quotation
marks omitted). The Court should take this case to resolve
conflict among the circuits, reaffirm its longstanding
liberal interpretation of RICO, and reject the narrow
reasoning of decisions that are corrosive of pleading rules
requiring liberal interpretation of RICO pleadings.
Congress intended that RICO, enacted under Title
IX of the Organized Crime Control Act of 1970, Pub. L.
91-452, 84 Stat. 941, provide a novel remedy for fighting
racketeering acts that cause economic injury. Sedima,

15
S.P.R.L. v. Imrex Co., 473 U.S. 479, 498 (1985); Russello
v. United States, 464 U.S. 16, 26-29 (1983). Fighting
corruption of economic activities through racketeering
places not only predicate acts such as narcotics trafficking
and money laundering within RICO’s ambit, but also,
mail and wire fraud in the perpetration of “gardenvariety fraud.” See Bridge, 553 U.S. at 660. Congress
directed RICO’s application to economic abuses through
predicate acts of racketeering, provided they occurred
as part of a pattern. However, a number of circuits have
applied factors in determining if there is a pattern of
activity, to create judicial gloss that has devolved into
what is essentially a “know it when I see it” test, that
defies RICO’s plain language, and the intent of Congress
that it be liberally applied. See Note, Bart A. Karwath,
Has the Constituency of Continuity Plus Relationship
Put an End to RICO’s Pattern of Confusion?, 18 Am. J.
Crim. L. 201, 211-41 (Winter 1991) (discussing continuity
issues that persisted after H.J. Inc. v. Northwestern Bell
Telephone Co., 492 U.S. 229 (1989), and which, after the
article, became more confused).
POINT I
THE SECOND CIRCUIT ORDER CONFLICTS
WITH SUPREME COURT AND OTHER
CIRCUITS’ CASELAW ON WHO IS CONSIDERED
A RACKETEERING VICTIM
In addition to its injuries to itself, as discussed supra,
Grace pled that Festa’s predicate acts caused direct
injuries to ABC, Amano, Ace-Tec, Liberty, and Heritage.
Nevertheless, the Second Circuit, in finding the scheme
had the “limited goal of defrauding Grace” (App. 5a-6a),
the “one clear victim” (App. 7a), disregarded all of the

16
other victims’ injuries in determining both closed-ended
and open-ended continuity. The Second Circuit Order
apparently considered only the party that suffered the
greatest direct injury to be a victim.
The issue of the number of victims of Festa’s scheme
relates to the continuity component of pattern (see Point
II, infra). Although the test of whether a person is a
victim for the purposes of showing continuity of predicate
acts should be subject to a more relaxed standard than
whether a person is a victim for the purposes of standing
to bring suit under RICO or RICO proximate causation,
there is similarity, so we proceed to examine the latter,
more stringent standard to demonstrate that the Second
Circuit should have considered the presence of six victims
in determining continuity.
In contrast to the Second Circuit Order, the Seventh
Circuit has held, as to civil RICO proximate cause, that
courts may not disregard one victim’s status as a plaintiff
simply because a more badly injured victim could be one.
See RWB Services, LLC v. Hartford Computer Group,
Inc., 539 F.3d 681, 688-89 (7th Cir. 2008) (holding “[t]he
existence of a ‘better’ plaintiff” is not “grounds for denying
a claim to a plaintiff directly injured by one predicate act
in the hopes that a different one will emerge. As alleged,
the defendants robbed Peter to defraud Paul; the former
is as foreseeable a plaintiff as the latter with as direct an
injury.”).
Moreover, the Third, Seventh, and Ninth Circuits
have held that a RICO plaintiff need not have been injured
by all of the predicate acts in a pattern. See Just Film,
Inc. v. Buono, 847 F.3d 1108, 1117 (9th Cir. 2017) (“[N]o
requirement exists that the plaintiff must suffer an injury

17
from two or more predicates, or from all of the predicate
acts.”) (quoting Deppe v. Tripp, 863 F.2d 1356, 1366 (7th
Cir. 1988)) (citation and internal quotation marks omitted)
(emphasis in Deppe); Buono, 847 F.3d at 1117-18 (citing
Town of Kearny v. Hudson Meadows Urban Renewal
Corp., 829 F.2d 1263, 1268 (3d Cir. 1987), for proposition
that RICO requires “only injury from ‘any predicate act,’
not from an entire pattern of racketeering”).
If a RICO plaintiff itself need not be injured by all
predicate acts, it necessarily follows that non-plaintiffs
may be victims even if injured by only some of the
predicate acts, and thus even if they are not the primary
victims.
The Second Court Order also implicitly conflicts
with Supreme Court precedent regarding civil RICO
proximate causation. The Supreme Court has limited
civil RICO liability to cases in which the predicate acts
proximately cause the plaintiff’s injury, i.e., there is
“some direct relation between the injury asserted and
the injurious conduct alleged.” Anza v. Ideal Steel Supply
Corp., 547 U.S. 451, 457 (2006) (quoting Holmes v. Secs.
Investor Protection Corp., 503 U.S. 258, 268 (1992))
(internal quotation marks omitted). However, this Court
does not impose a separate, independent requirement for
proximate causation that a victim be the primary target
of the pattern of racketeering activity as a whole.
Here, Subcontractors were direct victims of the Money
Laundering Scheme; Festa’s money laundering depleted
funds owed to Subcontractors. See Maiz v. Virani, 253
F.3d 641, 674 (11th Cir. 2001) (holding money laundering
that concealed defendants’ diversion of funds from RICO
plaintiffs’ investment accounts proximately injured

18
plaintiffs). Heritage was a direct victim of the Wire Fraud
Scheme, because it relied on the misrepresentations in the
A&Cs in lending funds to Grace to finance the Project.
ABC was a direct victim of the Wire Fraud Scheme
because it lost out on profits from the Project. See United
HealthCare Corp. v. Am. Trade Ins. Co., 88 F.3d 563, 572
(8th Cir. 1996) (RICO plaintiff could recover damages
when it “failed to receive the benefit of its bargain”).
A person need not sustain a maximum level of direct
damages to be considered a RICO victim. For example,
a RICO plaintiff has a cognizable injury even if the harm
inflicted is receipt of less money or value as a consequence
of the predicate acts. See Living Designs, Inc. v. E.I.
Dupont de Nemours & Co., 431 F.3d 353, 364 (9th Cir.
2005) (plaintiffs settling claims for smaller portion of
damages because of fraudulent inducement suffered RICO
injury), cert. denied, 547 U.S. 1192 (2006); Potomac Elec.
Power Co. v. Elec. Motor & Supply, Inc., 262 F.3d 260,
265 (4th Cir. 2001) (plaintiff who paid service provider
for services performed under certain specifications that
were not followed, could recover difference between
amount paid and amount it would have paid for actual work
performed). Here, two Subcontractors were not paid at
all, and a third was paid only partly; Heritage lent funds
based on misrepresentations and was not repaid; and ABC
lost projected Project profits.
Irreconcilable with the aforesaid authority, the
Second Circuit Order artificially narrows a RICO
pattern, disregarding victims sustaining direct injuries.
Festa defrauded the plaintiff by falsely claiming Falcon
paid Subcontractors, and robbed Subcontractors by
misappropriating trust funds owed to them through
money laundering. The Second Circuit first denies

19
Subcontractors’ victimization, then dismisses on the
ground that only one victim remained. The Second
Circuit’s approach frustrates RICO prosecution through
the “one clear victim” obstacle.
POINT II
THE SECOND CIRCUIT ORDER REFLECTS A
PRONOUNCED SPLIT AMONG CIRCUITS ON
WHAT CIRCUMSTANCES PRECLUDE
FINDING RICO CONTINUITY
The RICO provision upon which Grace relies, 18
U.S.C. § 1962(c), provides, in relevant part, “It shall
be unlawful for any person employed by or associated
with any enterprise…, to conduct or participate…in the
conduct of such enterprise’s affairs through a pattern of
racketeering activity.” The gravamen of this case is what
constitutes a “pattern of racketeering activity.”
A. H.J. Inc. as the Starting Point
In H.J. Inc. v. Northwestern Bell Telephone Co., 492
U.S. 229 (1989), the Supreme Court held that multiple
schemes are not necessary for a RICO pattern, id. at
240-41, and set forth a framework for determining what
constitutes a pattern, which is not formed by “sporadic
activity.” Id. at 239 (quoting S. Rep. No. 91-617, p. 158
(1969)) (internal quotation marks omitted). A pattern
consists of “continuity plus relationship.” H.J. Inc., 492
U.S. at 239 (emphasis in original) (citation and internal
quotation marks omitted). It must “be shown that the
predicates themselves amount to, or that they otherwise
constitute a threat of, continuing racketeering activity.”
Id. at 240 (emphasis in original). Continuity can be

20
closed-ended, referring to “a closed period of repeated
conduct,” id. at 241, or open-ended, referring to “past
conduct that by its nature projects into the future with a
threat of repetition,” id. Closed-ended continuity can be
demonstrated “by proving a series of related predicates
extending over a substantial period of time,” id. at 242,
which period must be more than a few weeks or months, id.
Alternatively, open-ended continuity can exist if a RICO
action were “brought before continuity can be established
in this way,” id., “depend[ing] on whether the threat of
continuity is demonstrated,” id. (emphasis in original).
Open-ended continuity can exist “if the related
predicates themselves involved a distinct threat of longterm racketeering activity, either implicit or explicit.”
H.J. Inc., 492 U.S. at 242. As one example, the Court
cited a protection racket, wherein “the racketeering acts
themselves include a specific threat of repetition extending
indefinitely into the future.” Id. Threat of continued
activity could also “be established by showing that the
predicate acts or offenses are part of an ongoing entity’s
regular way of doing business,” id., e.g., “a regular way
of conducting defendant’s ongoing legitimate business.”
id. at 243.
Given the kaleidoscope of decisions among the Circuits
as to continuity, as discussed below, the Court should
intervene, 31 years after H.J. Inc., to provide further
guidance.
B. The Circuit Courts Have Splintered on What
Factors Preclude Continuity
Preliminarily, Grace disputes the Second Circuit
Order’s characterization of Festa’s conduct as a single

21
scheme aimed at defrauding Grace. This conclusion
mischaracterizes Grace’s allegations and fails to construe
liberally the AC as required. Even assuming arguendo
the characterization is correct, there is a circuit split.
Post-H.J. Inc., federal circuits, endeavoring to
restrict RICO to non-sporadic racketeering activity, have
splintered. Some focus on the number of racketeering
injuries, holding that multiple injuries, even to a single
victim, is sufficient. Some preclude a pattern where
there is a narrow or limited “goal” or “objective” (“Goal
Restriction”), or a single scheme with one victim (“Single
Scheme/Victim Restriction”). Another rejects continuity
when activities arise out of one “transaction” or “event”
(“Transaction Restriction”). Others, including the First
Circuit and, as will be argued, the Second Circuit Order,
have imposed all three restrictions. Consequently, circuits
have gone in at least four different directions in addressing
continuity, resulting in unpredictability.
1.

Closed-Ended Continuity
a.

Four Circuits Impose the Goal Restriction,
Apparently Even If There Are Multiple
Injuries

The Fourth, Sixth, Tenth, and Eleventh Circuits have
rejected closed-ended continuity per se when the activities
have a limited goal. See Al-Abood ex rel. Al-Abood v. ElShamari, 217 F.3d 225, 230, 238 (4th Cir. 2000) (“narrow
focus” of three separate schemes between formerly
close family friends to defraud single victim precluded
continuity); Moon v. Harrison Piping Supply, 465 F.3d
719, 725 (6th Cir. 2006) (all predicate acts “were keyed
to Defendants’ single objective of depriving Moon of his

22
benefits”); Vemco, Inc. v. Camardella, 23 F.3d 129, 135
(6th Cir. 1994) (scheme had a “single purpose”); Hall v.
Witteman, 584 F.3d 859, 867-68 (10th Cir. 2009) (“single
scheme to accomplish a discrete goal”); Sil-Flo, Inc. v.
SFHC, Inc., 917 F.2d 1507, 1516 (10th Cir. 1990) (“single
scheme to accomplish ‘one discrete goal’”) (citation
omitted); Jackson v. BellSouth Telecommunications,
372 F.3d 1250, 1267 (11th Cir. 2004) (“single scheme
with a discrete goal”). None of these cases indicated the
result would have been different had the victims suffered
multiple injuries, and at least in Al-Abood multiple injuries
were inflicted, see Al-Abood, 217 F.3d at 230, 238.
b.

Two Circuits Impose the Single Scheme/
Victim Restriction

The Sixth Circuit appears to have imposed the Single
Scheme/Victim Restriction, whereby continuity is not
satisfied by a single scheme with a single victim, but may
be if there are multiple victims. Compare Moon, 465
F.3d at 725 (no closed-ended continuity from fraudulent
termination of one employee’s workers’ compensation
benefits), with Brown v. Cassens Transport Co., 546 F.3d
347, 355 (6th Cir. 2008) (finding closed-ended continuity
where multiple employees of employer were fraudulently
denied workers’ compensation benefits). 2
One other circuit implicitly adopts a variation on the
Single Scheme/Victim Restriction, finding no continuity
where a single scheme causes a single injury to a small
number of victims, but implies there could be continuity
2. Situations of a “single victim” and a single or limited
goal may overlap. See, e.g., Vemco, 23 F.3d at 136 (observing that
defendant’s conduct “involv[ed] a single victim and a single scheme
for a single purpose”).

23
where there are multiple injuries. See Edmondson &
Gallagher v. Alban Towers Tenants Ass’n, 48 F.3d 1260,
1265 (D.C. Cir. 1995).
Assuming arguendo the Second Circuit Order’s
single-scheme and single-victim conclusions are correct,
the Sixth Circuit’s standard would preclude finding
continuity, but the D.C. Circuit’s might not, because Grace
suffered multiple injuries.
c.

At Least Three Circuits Hold Infliction
of Multiple Injuries Upon a Plaintiff, in
Pursuit of the Same Object or Scheme, Is
Sufficient

In sharp contrast to the Fourth, Sixth, Tenth, and
Eleventh Circuits, the Third, Seventh, and Eighth Circuits
have held that racketeering activity directed at a single
victim or limited number of victims, and inflicting multiple,
distinct injuries, is sufficient for closed-ended continuity,
regardless of whether the activities are in service of a
common goal or scheme. See Fujisawa Pharmaceutical
Co., Ltd. v. Kapoor, 115 F.3d 1332, 1338 (7th Cir. 1997)
(single victim); Uniroyal Goodrich Tire Co. v. Mutual
Trading Corp., 63 F.3d 516, 523-24 (7th Cir. 1995) (single
victim); Tabas v. Tabas, 47 F.3d 1280, 1285-86, 1294-96
(3d Cir. 1995) (en banc) (victim is a decedent’s estate);
Handeen v. Lemaire, 112 F.3d 1339, 1344, 1353 (8th Cir.
1997) (single victim); see also United States v. Hively,
437 F.3d 752, 757, 761-62 (8th Cir. 2006) (multiple injuries
inflicted on two victims). 3
3. The Ninth Circuit also so held in an unpublished decision,
see Kearney v. Foley & Lardner, LLP, 607 Fed. Appx. 757, 759 &

24
Under this standard, Grace would have sufficiently
pled continuity, even assuming arguendo Festa’s sole
“goal” was to defraud Grace and there was only one
scheme, because each separate fraudulently induced
payment to Falcon inflicted a separate injury.
d.

The Fifth Circuit Imposes the Transaction
Restriction

The Fifth Circuit differs from the circuits previously
discussed, in that it has held that “where alleged RICO
predicate acts are part and parcel of a single, otherwise
lawful transaction, a ‘pattern of racketeering activity’
has not been shown.” Word of Faith World Outreach
Center Church, Inc. v. Sawyer, 90 F.3d 118, 123 (5th Cir.
1996). There, because the alleged predicate acts occurred
during the production of television news reports, “a single,
lawful endeavor,” there was no pattern. Id. Under this
standard, Festa’s conduct likely would not give rise to
continuity, since it originated from the “lawful endeavor”
of a construction contract.

n.1 (9th Cir. 2015) (citing Sun Sav. & Loan Ass’n v. Dierdorff, 825
F.2d 187, 191-94 (9th Cir. 1987)), but in a published decision more
recent than Sun Savings, the Ninth Circuit held no continuity
existed when defendant inflicted multiple injuries on one victim,
for “the singular purpose of impoverishing [plaintiff],” Sever v.
Alaska Pulp Corp., 978 F.2d 1529, 1532-33, 1535-36 (9th Cir. 1992).

25
e.

The First Circuit and Second Circuit
Order Impose the Goal, Single Scheme/
Victim, and Transaction Restrictions, and
Preclude Closed-Ended Continuity Even If
Multiple Injuries Are Inflicted

The First Circuit employs the Goal Restriction, Single
Scheme/Victim Restriction; and a modified version of the
Transaction Restriction. See Home Orthopedics Corp. v.
Rodriguez, 781 F.3d 521, 525-26, 529-30 (1st Cir. 2015)
(collecting cases) (no continuity where there is “a single,
narrow scheme targeting few victims,” or where predicate
acts originate from a single “event” or “transaction” for
the purpose of “accomplishing a singular, narrow goal”
and facilitating “a single financial endeavor”, even though
plaintiff had been induced to make “numerous payments”
so that multiple injuries had been inflicted) (citations and
internal quotation marks omitted).
The Second Circuit Order imposes the same three
restrictions respecting continuity, because Festa’s
racketeering purportedly had “the limited goal of
defrauding Grace” (Goal Restr iction), there was
purportedly “one scheme with one clear victim” (Single
Scheme/Victim Restriction), and purportedly “a single
episode of fraud involving one victim and relating to one
basic transaction” (Transaction Restriction) (App. 7a-8a)
(quoting Crawford v. Franklin Credit Mgmt. Corp., 758
F.3d 473, 489 (2d Cir. 2014) (quoting, in turn, Tellis v. U.S.
Fid. & Guar. Co., 826 F.2d 477, 478 (7th Cir. 1986)). 4
4. Since Grace alleged multiple, distinct injuries, in the form
of separate overpayments, the Second Circuit Order appears to
hold the infliction of multiple injuries upon a victim is insufficient

26
2.

Circuit Courts Have Similarly Splintered in
Imposing Restrictions Upon Open-Ended
Continuity

The aforementioned restrictions imposed on closedended continuity have been largely repeated in the
respective circuit courts’ treatment of open-ended
continuity. See Tabas, 47 F.3d at 1295 (Third Circuit
finding open-ended continuity, in situation where multiple
injuries had been inflicted upon estate); Brown, 546
F.3d at 355 (Sixth Circuit finding open-ended as well as
closed-ended continuity, considering same factors as to
each); Hively, 437 F.3d at 761-62 (same, in Eighth Circuit);
Rodriguez, 781 F.3d at 531 (First Circuit finding “an
open-ended pattern would fail here for largely the same
reasons that a closed pattern would”); Gonzalez-Morales
v. Hernandez-Arencibia, 221 F.3d 45, 52 (1st Cir. 2000)
(First Circuit finding no open-ended continuity where
predicate acts originated from a single contract).
C. An Expansive Approach to Considering the
Number of Victims, Injuries, and Transactions in
Determining Closed- and Open-Ended Continuity
Should Prevail
Even if racketeering activity pursues a “limited goal”
or a single objective, targets a single or limited number of
victims, or arises from a single transaction, that should
not preclude a finding of closed-ended or open-ended
continuity when the defendant has inflicted multiple
injuries. “As we read the statute, we do not believe that
Congress intended that one could insulate himself from
for closed-ended continuity.

27
the reach of RICO simply by repeatedly bilking the same
victim.” Blue Cross & Blue Shield of Michigan v. Kamin,
876 F.2d 543, 545 (6th Cir. 1989); Kapoor, 115 F.3d at 1338
(hypothetically, RICO prohibits progressive fleecing of
widow). Since, under H.J. Inc., continuity is “centrally a
temporal concept,” 492 U.S. at 241-42, the circumstance
that a defendant repeatedly victimized the same person
over time, rather than varying among multiple victims,
should not be dispositive.
Following H.J. Inc., the circuits have derived multifactor tests for determining whether closed-ended
continuity is satisfied, assuming one of the aforesaid
preclusive restrictions is not being applied. For instance,
the Third Circuit considers (1) number of unlawful acts;
(2) length of time over which the acts were committed; (3)
similarity of the acts; (4) number of victims; (5) number of
perpetrators; and (6) character of the unlawful activity.
Tabas, 47 F.3d at 1292 (citing Barticheck v. Fidelity Union
Bank/First Nat’l State, 832 F.2d 36, 39 (3d Cir. 1987)).
Where, as here, there are multiple victims, two
schemes, multiple injuries, thirteen acts of wire fraud,
and three acts of money laundering, continuity should be
found, balancing the factors set forth in cases like Tabas.
This also serves the purpose of deterring racketeering
activity. Rotella v. Wood, 528 U.S. 549, 557 (2000).
The length of time over which the acts were committed
appears paramount, see H.J. Inc., 492 U.S. at 241-42. The
number of predicate acts is also given considerable weight;
a greater number of acts indicates the perpetrator’s
propensity to commit coherent racketeering. The number
of perpetrators is the least important factor, because the

28
presence of multiple perpetrators implies the need for each
member’s continued participation to engage in the pattern.
One among many perpetrators may withdraw, potentially
halting the activity. In addition, to the extent the
enterprise is an entity, if multiple persons are operating
or managing the enterprise, as those persons change
over time, they may choose to cease the racketeering.
With a single person managing the enterprise, as Festa
does Falcon, there is no chance of such a power shift, and
Falcon can continue as the racketeering enterprise as
long as Festa desires.
The number of victims is also less important. One
may be victimized over an extended period of time as
easily as many. Indeed, some circuits do not distinguish
between one victim and a limited number of victims. See
Edmondson & Gallagher, 48 F.3d at 1265 (“single discrete
goal” is a “far more important” factor to continuity than
distinction between one and three victims); Boone v.
Carlsbad Bancorporation, Inc., 972 F.2d 1545, 1556 (10th
Cir. 1992) (applying Sil-Flo, concerning scheme directed
at one individual, to scheme directed “at a finite group of
individuals” without noting distinction).
While lower courts emphasize the nature of the
racketeering acts, dismissiveness of predicate acts of mail
or wire fraud because they reflect “garden-variety fraud”
perceived as beyond RICO’s reach, has been rejected by
this Court. See Bridge, 553 U.S. at 660. In any event,
money laundering is also involved here, as a second,
related, racketeering scheme.

29
POINT III
WHETHER A SCHEME’S “INHERENTLY
TERMINABLE” NATURE PER SE PRECLUDES
OPEN-ENDED CONTINUITY IS THE
SUBJECT OF A CIRCUIT SPLIT
A number of circuits have held that where a scheme
is “inherently terminable” or has a “natural endpoint,”
open-ended continuity cannot be found. See, e.g., Vemco,
23 F.3d at 134-35 (scheme with single goal of plaintiff
paying cost of one paint system is insufficient for openended continuity). Some courts rely upon H.J. Inc.’s
language that activity must have the potential to continue
“indefinitely” to give rise to open-ended continuity. See
McDonald v. Schencker, 18 F.3d 491, 498 (7th Cir. 1994)
(rejecting open-ended continuity for ongoing litigation
because “every lawsuit has a foreseeable end in sight” so
related fraud could not “extend indefinitely”) (emphasis
in original).
However, interpreting language in H.J. Inc., 492 U.S.
at 242, as always requiring the prospect of indefinite
continuation, largely defeats the purpose of open-ended
continuity. In most cases where courts have rejected
open-ended continuity based on a fixed endpoint, the
racketeering’s speedy conclusion benefited the defendant.
See, e.g., Efron v. Embassy Suites (Puerto Rico), Inc.,
223 F.3d 12, 19-20 (1st Cir. 2000) (defendant had obvious
reason to squeeze out partnership’s other principals
quickly, i.e., to reap quickly greater profits).
Here, however, there was an incentive to prolong the
racketeering. With each successive A&C, Festa obtained

30
more ill-gotten funds through further misrepresentations.
Ending the Project quickly would have deprived Festa of
further opportunities to provide A&Cs overbilling Grace.
This case invites differentiation of instances in which
defendants have an incentive to complete the activity
expeditiously, from those where defendants have reason
to postpone it. The former does not contain a future threat
of racketeering; the latter presents its likelihood.
Moreover, there is an implicit conflict among the
circuits on this issue. As discussed in greater detail in
Point IV below, multiple circuits have held that a fortuitous
interruption of criminal activity is insufficient to defeat
open-ended continuity. As United States v. Busacca, 926
F.2d 232, 238 (6th Cir. 1991), states, “An analysis of the
threat of continuity cannot be made solely from hindsight.
All racketeering activity must necessarily come to an end
sometime.” Yet any activity that must come to an end is,
by definition, not indefinite.
POINT IV
THE SECOND CIRCUIT ORDER CONFLICTS
WITH OTHER CIRCUITS ON REQUIREMENTS
FOR PLEADING ANTICIPATED CONTINUATION
OF RACKETEERING ACTIVITY
The Second Circuit Order held that Grace’s allegations
that the predicate acts were the means by which Falcon
“regularly operated” were insufficient because Grace cited
only “its own limited interactions with Festa in support
of that contention” (App. 7a), and that Grace’s allegation
there was a threat of continuing racketeering activity at

31
the time of the Project’s fortuitous interruption was too
speculative (id.).
These holdings imposed a heavy pleading burden
inconsistent with the Fed. R. Civ. P. 12(b)(6) dismissal
standard, that all reasonable inferences be afforded the
pleader. In addition, requiring a civil RICO plaintiff to
plead detailed facts concerning continuation, runs directly
counter to decisions from other circuits, and is implicitly
contrary to others.
A. Multiple Circuits Have Granted Civil RICO
Plaintiffs Favorable Inferences as to Open-Ended
Continuity That Were Denied Grace
The Sixth Circuit holds civil RICO plaintiffs may
sufficiently plead open-ended continuity even without
specifically alleging ongoing racketeering activity. Brown,
546 F.3d at 355. Because open-ended continuity may be
inferred from other circumstances alleged by the plaintiff,
it is error to burden the plaintiff with pleading details of
continued racketeering.
The Fourth, Fifth, and Sixth Circuits have held
Rule 12(b)(6) motions against civil RICO claims should
be denied unless future termination may be inferred
from the complaint. See Abraham v. Singh, 480 F.3d 351,
355-56 (5th Cir. 2007) (faulting lower court for “turning
the Supreme Court’s explanation of the continuity prong
into a stringent pleading requirement”); Heinrich v.
Waiting Angels Adoption Services, Inc., 668 F.3d 393,
411 (6th Cir. 2012) (at time of predicate acts, “there was
no indication that their pattern of behavior would not
continue indefinitely into the future”); CVLR Performance

32
Horses, Inc. v. Wynne, 524 Fed. Appx. 924, 928 (4th Cir.
2013) (“the Amended Complaint creates no inference that
[defendant] has ended its fraudulent activities”); see also
Kamin, 876 F.2d at 545 (reversing post-discovery sua
sponte grant of dismissal).
Two other circuits have held, in a summary judgment
context, that the plaintiff was entitled to an inference
that racketeering activity would continue. See Shields
Enterprises, Inc. v. First Chicago Corp., 975 F.2d 1290,
1296 (7th Cir. 1992) (where defendant majority shareholder
extorted minority shareholders all three times they
impeded defendant’s goals, court inferred extortion
was defendant’s regular way of operation); Ikuno v.
Yip, 912 F.2d 306, 309 (9th Cir. 1990) (defendant filed, in
consecutive years, two allegedly false annual reports for
company that shut down the next year). If on summary
judgment a plaintiff with the benefit of discovery is entitled
to a presumption that the predicate acts will continue, a
plaintiff facing a Rule 12(b)(6) dismissal without discovery
should fare no worse.
In the instant case, as in Shields and Ikuno, the
defendant repeatedly engaged in racketeering activity
when circumstances allowed. Those courts acknowledged
that one may infer that a defendant would continue to
engage in the same actions. In Shields this involved three
predicate acts over eight months, while Ikuno involved
two acts over approximately one year. At bar, plaintiff
alleged all of Falcon’s eleven repetitious A&Cs issued from
August 2015 to August 2016 contained misrepresentations,
including repetitious historical misrepresentations,
such that all uses of the wires involving the A&Cs were
fraudulent. Yet the Second Circuit found it “speculative”

33
to expect Festa to act the same way in the future as he
had on all eleven previous occasions, despite the Project
being only 38.5% finished, so that the relationship between
Grace and Defendants would have continued, but for its
fortuitous interruption.
B. The Second Circuit’s Holding That a Defendant’s
Consistent Past Conduct Cannot Serve as a Basis
to Anticipate Future Conduct, Conflicts with Four
Other Circuits
Taken to its logical conclusion, the Second Circuit’s
holding is in conflict with the approach, adhered to
by at least four other circuits, that intervening events
disrupting racketeering activity cannot defeat open-ended
continuity. See Busacca, 936 F.2d at 238 (“[t]he lack of a
threat of continuity of racketeering activity cannot be
asserted merely by showing a fortuitous interruption of
that activity such as by an arrest, indictment or guilty
verdict”); accord, Heinrich, 668 F.3d at 410-11; United
States v. Baker, 598 Fed. Appx. 165, 173 (4th Cir. 2015);
Wynne, 524 Fed. Appx. at 929; United States v. O’Connor,
910 F.2d 1466, 1468 (7th Cir. 1990); United States v.
Richardson, 167 F.3d 621, 626 (D.C. Cir. 1999).
Without the inference that activity would have
continued if not fortuitously interrupted, it would almost
always be “speculative” whether the racketeering would
have continued. See Menzies v. Seyfarth Shaw LLP, 943
F.3d 328, 356 (7th Cir. 2019) (Hamilton, J., dissenting)
(“In the law we ordinarily assume that people are rational
actors. Here, that means that we would expect defendants
to continue with their profitable venture.”).

34
C. The Second Circuit Not Only Denied Grace
Favorable Inferences, It Disregarded Grace’s
Factual Allegations
In concluding Grace had alleged only predicate acts
of wire fraud, the Second Circuit Order necessarily
disregarded Grace’s detailed pleadings as to money
laundering. This omission both narrowed the number
of Festa’s victims, and avoided caselaw that money
laundering is inherently unlawful activity, raising an
inference of open-ended continuity. See United States v.
Coiro, 922 F.2d 1008, 1017 (2d Cir. 1991).
Similarly, the Second Circuit disregarded many
allegations substantiating a threat of continuing activity,
then characterized Grace’s pleading on the subject
as conclusory and speculative. This characterization
ignores Grace’s allegations that: every single A&C Festa
provided to Grace was fraudulent (AC ¶¶ 16, 241); Festa
had continued making misrepresentations to Grace and
causing the use of interstate wires to further the Wire
Fraud Scheme through Grace’s last payment to Falcon (AC
¶ 242); there was no reason to believe Festa would change
his custom of consistently making misrepresentations and
engaging in money laundering (AC ¶ 244); Festa made oral
misrepresentations to Subcontractors and defrauded them
as well (AC ¶ 228(d)); and Festa committed non-predicate
acts of grand larceny (AC ¶¶ 230-32) and perjury (see
AC ¶ 16), along with wire fraud and money laundering.
The Sixth, Seventh, and Tenth Circuits have held that
conduct other than predicate acts should be considered
in determining whether racketeering activity is likely to
continue. See Heinrich, 668 F.3d at 410; Brown, 546 F.3d
at 355; Busacca, 936 F.2d at 238; United States v. Palumbo

35
Brothers, Inc., 145 F.3d 850, 878 (7th Cir. 1998); Tal v.
Hogan, 453 F.3d 1244, 1268 (10th Cir. 2006); Resolution
Trust Corp. v. Stone, 998 F.2d 1534, 1544 (10th Cir. 1993).
Furthermore, an allegation that a defendant acted
in a certain way on all eleven prior iterations of an A&C
is not “conclusory” as the Second Circuit held, because
that term ordinarily means the expression of a factual
inference without stating the underlying facts on which
the inference is based, Hamilton v. Sikorsky Aircraft
Corp., 760 Fed Appx. 872, 877 (11th Cir. 2019) (quoting
Black’s Law Dictionary).
D. Requiring RICO Plaintiffs to Plead Defendants’
Racketeering Conduct Towards Others Is Counter
to Other Circuits’ Precedent and Disregards the
Dismissal Motion Rule That Plaintiffs Be Granted
Favorable Inferences
The Second Circuit’s holding that Grace cannot
demonstrate how Falcon regularly operated by “point[ing]
only to its own limited interactions with Festa” (App. 7a)
is deeply flawed. First, it inverts the requirement that
plaintiffs be granted all favorable inferences on a Rule
12(b)(6) motion. See, e.g., Loreley Fin. (Jersey) No. 3 Ltd.
v. Wells Fargo Sec., LLC, 797 F.3d 160, 171 (2d Cir. 2015)
(“As always at the Rule 12(b)(6) stage, we credit all nonconclusory factual allegations in the complaint and draw
all reasonable inferences in Plaintiffs’ favor.”) Instead,
the Second Circuit gave a favorable inference to Festa by
effectively assuming that Falcon’s racketeering activity as
to Grace operations, as a matter of law, could not possibly
be representative of its “regular[] operat[ions]” (App. 7a).

36
Second, the Second Circuit disregarded that Grace
also alleged that Festa had made misrepresentations
to the Subcontractors, not just Grace, and committed
repeated crimes against them, further demonstrating
Festa’s propensity to engage in racketeering activity.
Moreover, other federal circuits have not interpreted
H.J. Inc.’s language, “regular way of doing business,”
as encompassing all operations of a RICO defendant. In
Shields, the Seventh Circuit found that the defendant
majority shareholder’s alleged extortion of the minority
shareholders raised an issue of fact as to continuity,
although Shields did not indicate that the defendant’s sole
function was ownership of that corporation. 975 F.2d at
1296. Similarly, in Ikuno the Ninth Circuit found that the
defendant attorney’s filing of two consecutive fraudulent
annual reports for a company was sufficient to support a
finding of a threat of continuity, though presumably the
defendant’s practice consisted of more than filing one
annual report each year. 912 F.2d at 309.
Furthermore, whether Festa engaged in racketeering
activities towards others would be peculiarly within his
knowledge. See Arista Records, LLC v. Doe 3, 604 F.3d
110, 120 (2d Cir. 2010) (plaintiff may plead facts upon
information and belief “where the facts are peculiarly
within the possession and control of the defendant”).
Under the circumstances, the presumption should be made
in Grace’s favor.

37
CONCLUSION
The Second Circuit Order’s imposition of a narrow
substantive and procedural approach to construction of
a civil RICO complaint curtails RICO’s congressionally
intended scope. “It is not for the judiciary to eliminate
the private action in situations where Congress has
provided it”. Bridge, 553 U.S. at 660 (quoting Sedima,
473 U.S. at 499-500) (internal quotation marks omitted)).
For the reasons discussed herein, the Court should grant
certiorari.
Dated:

July 13, 2020

				Respectfully submitted,
Michael A. Haskel
Counsel of Record
Brandon M. Zlotnick
Law Offices of
Michael A. Haskel
167 Willis Avenue
Mineola, NY 11501
(516) 294-0250
haskelesq2@gmail.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED DECEMBER 30, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 19-1101-cv
GRACE INTERNATIONAL ASSEMBLY OF GOD,
Plaintiff-Appellant,
v.
GENNARO FESTA, FALCON GENERAL
CONSTRUCTION SERVICES, INC.,
Defendants-Appellees.
December 30, 2019, Decided
Appeal from a judgment of the United States District
Court for the Eastern District of New York. (Sandra J.
Feuerstein, Judge).
PRESENT:

AMALYA L. KEARSE,
CHRISTOPHER F. DRONEY,
RICHARD J. SULLIVAN,
		
Circuit Judges.
SUMMARY ORDER

2a
Appendix A
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Plaintiff-Appellant Grace International Assembly of
God (“Grace”) appeals from a decision of the district court
(Feuerstein, J.) dismissing its claims against DefendantsAppellees Gennaro Festa and Falcon General Construction
Services, Inc. under the Racketeer Influenced and Corrupt
Organization Act (“RICO”), 18 U.S.C. § 1962(c), and state
law. On appeal, Grace argues that the district court erred
in finding that Grace failed to adequately plead a pattern
of predicate acts sufficient to state a claim under RICO.
We assume the parties’ familiarity with the underlying
facts and the record of prior proceedings, to which we
refer only as necessary to explain our decision to affirm.
We review a district court’s dismissal of a complaint
under Federal Rule of Civil Procedure 12(b)(6) de novo.
See Commercial Cleaning Servs., L.L.C. v. Colin Serv.
Sys., Inc., 271 F.3d 374, 380 (2d Cir. 2001). “To survive
a motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570, 127 S.
Ct. 1955, 167 L. Ed. 2d 929 (2007)). “A claim has facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal, 556
U.S. at 678. In addressing the sufficiency of a complaint
we accept as true all factual allegations and draw from

3a
Appendix A
them all reasonable inferences; but we are not required
to credit allegations that are speculative or conclusory.”
See, e.g., Twombly, 550 U.S. at 555, 557.
I.

RICO

“To state a claim for damages under RICO a plaintiff
. . . must allege . . . (1) that the defendant (2) through
the commission of two or more acts (3) constituting a
‘pattern’ (4) of ‘racketeering activity’ (5) directly or
indirectly invest[ed] in, or maintain[ed] an interest in,
or participate[d] in (6) an ‘enterprise’ (7) the activities of
which affect[ed] interstate or foreign commerce.’” Moss
v. Morgan Stanley Inc., 719 F.2d 5, 17 (2d Cir. 1983)
(quoting 18 U.S.C. § 1962(a)-(c) (1976)), cert. denied Moss
v. Newman, 465 U.S. 1025, 104 S. Ct. 1280, 79 L. Ed. 2d
684 (1984).
As the primary basis for its racketeering claim, Grace
alleges that Defendants committed numerous counts of
wire fraud, in violation of 18 U.S.C. § 1343, during the
course of a construction project commissioned by Grace.
Grace also alleges that Defendants committed money
laundering, in violation of 18 U.S.C. § 1956, although it
disclaims any specific harm resulting from those offenses.
Instead, Grace merely argues that the money laundering
counts support its claim of a RICO pattern. We assume
for the purposes of this Order that Grace has adequately
pleaded both wire fraud and money laundering, but
find nonetheless that Grace has not alleged a pattern of
racketeering activity as required under RICO.

4a
Appendix A
II. RICO Pattern
A “pattern of racketeering activity” must consist of
at least two predicate acts, “the last of which occurred
within ten years . . . after the commission of a prior act of
racketeering activity.” 18 U.S.C. § 1961(5). Racketeering
activities must “amount to or pose a threat of continued
criminal activity.” Cofacredit, S.A. v. Windsor Plumbing
Supply Co., 187 F.3d 229, 242 (2d Cir. 1999) (quoting H.J.
Inc. v. Nw. Bell Tel. Co., 492 U.S. 229, 239, 109 S. Ct.
2893, 106 L. Ed. 2d 195 (1989)). To meet this so-called
“continuity” requirement, a “plaintiff in a RICO action
must allege either an open-ended pattern of racketeering
activity (i.e., past criminal conduct coupled with a threat
of future criminal conduct) or a closed-ended pattern of
racketeering activity (i.e., past criminal conduct extending
over a substantial period of time).” First Capital Asset
Mgmt., Inc. v. Satinwood, Inc., 385 F.3d 159, 180 (2d Cir.
2004) (quoting GICC Capital Corp. v. Tech. Fin. Grp., Inc.,
67 F.3d 463, 466 (2d Cir. 1995)). “Given the routine use
of mail and wire communications in business operations,
. . . ‘RICO claims premised on mail or wire fraud must
be particularly scrutinized because of the relative ease
with which a plaintiff may mold a RICO pattern from
allegations that, upon closer scrutiny, do not support
it.’” Crawford v. Franklin Credit Mgmt. Corp., 758 F.3d
473, 489 (2d Cir. 2014) (quoting Efron v. Embassy Suites
(Puerto Rico), Inc., 223 F.3d 12, 20 (1st Cir. 2000), cert.
denied, 532 U.S. 905, 121 S. Ct. 1228, 149 L. Ed. 2d 138
(2001)).

5a
Appendix A
A.

Closed-ended Continuity

Like the district court, we find that Grace has failed
to allege closed-ended continuity. As noted above, “[t]o
satisfy closed-ended continuity, the plaintiff must prove ‘a
series of related predicates extending over a substantial
period of time.’” Cofacredit, 187 F.3d at 242 (quoting H.J.
Inc., 492 U.S. at 242). Since the Supreme Court decided
H.J. Inc., we have never found predicate acts spanning
less than two years to be sufficient to constitute closedended continuity. “[W]hile two years may be the minimum
duration necessary to find closed-ended continuity, the
mere fact that predicate acts span two years is insufficient,
without more, to support a finding of a closed-ended
pattern.” First Capital, 385 F.3d at 181. The court must
also consider the number and variety of predicate acts, the
presence or absence of multiple schemes, and the number
of participants and victims. See Spool v. World Child Int’l
Adoption Agency, 520 F.3d 178, 184 (2d Cir. 2008); First
Capital, 385 F.3d at 181.
Grace a rg ues it has adequat ely a l leged the
requirements of closed-ended continuity because “the
acts took place for a period extending longer than two
(2) years,” Plaintiff’s Amended Complaint (“AC”) ¶ 240,
since the scheme allegedly lasted a total of twenty-nine
months. However, the scheme involved few victims —
most generously Grace, its principal investor, and a
handful of subcontractors who were left unpaid — and
fewer perpetrators — just Festa, acting through his
construction company, Falcon. At bottom, the RICO
scheme alleged in the complaint had the limited goal of

6a
Appendix A
defrauding Grace. We therefore agree with the district
court that such a scheme does not support a finding of
closed-ended continuity. See First Capital, 385 F.3d at
182 (holding that predicate acts over two-and-a-half years
did not constitute closed-ended continuity because the
complaint “alleged that [defendant] engaged in a single
scheme to defraud two creditors by quickly moving his
assets to his relatives and then concealing the existence
of those assets during his bankruptcy proceeding”).
B. Open-ended Continuity
Grace also fails to allege open-ended continuity.
There are two ways to show open-ended continuity –
(1) “where the acts of the defendant or the enterprise [are]
inherently unlawful, such as murder or obstruction of
justice, and [are] in pursuit of inherently unlawful goals,
such as narcotics trafficking or embezzlement,” United
States v. Aulicino, 44 F.3d 1102, 1111 (2d Cir. 1995), or
(2) “where the enterprise primarily conducts a legitimate
business” but there is “some evidence from which it may
be inferred that the predicate acts were the regular
way of operating that business, or that the nature of the
predicate acts themselves implies a threat of continued
criminal activity,” Cofacredit, 187 F.3d at 243 (citing H.J.
Inc., 492 U.S. at 243). The allegation of a scheme that was
inherently terminable does not plausibly imply a threat of
continued racketeering activity. Id. at 244
Grace has failed to allege the first type of open-ended
continuity, which primarily targets organized crime.
See Reich v. Lopez, 858 F.3d 55, 60 (2d Cir. 2017), cert.

7a
Appendix A
denied, 138 S. Ct. 282, 199 L. Ed. 2d 127 (2017) (“Even if
[the defendant] pays bribes, it is primarily in the energy
business; it is not a narcotics ring or an organized crime
family.”). And Grace fares no better in establishing openended continuity under the second method. Although
Grace conclusorily alleges that the predicate acts were
the means by which Falcon, a construction company,
“regularly operated,” AC ¶ 241, it points only to its
own limited interactions with Festa in support of that
contention, AC ¶ 241. At best, Grace alleges conclusorily
and speculatively that the “nature of the predicate acts
implied a threat of continuing activity” because “[t]he
Project remained incomplete and similar predicate acts
could continue to occur,” AC ¶ 242, since the contract was
only “38.5% complete,” AC ¶ 243. But Grace’s speculative
claims regarding how long the fraud would continue do not,
on their own, support a showing of open-ended continuity.
See GICC Capital Corp., 67 F.3d at 466 (rejecting claim
that defendant would have continued scheme had plaintiff
not commenced litigation on the grounds it was “entirely
speculative”). Even accepting that the project remained
unfinished, Grace’s construction project was ultimately
terminable, and Grace has offered no other facts to
suggest the activities would continue in the future.
While Grace attempts to magnify the racketeering
scheme by expanding the number of victims and predicate
acts, in reality this is one scheme with one clear victim.
That is clearly insufficient to establish a pattern for
the purposes of RICO. See Crawford, 758 F.3d at 489
(“[M]ultiple acts of mail fraud in furtherance of a single
episode of fraud involving one victim and relating to

8a
Appendix A
one basic transaction cannot constitute the necessary
pattern.”) (quoting Tellis v. U.S. Fid. & Guar. Co., 826
F.2d 477, 478 (7th Cir. 1986)).
We have considered Grace’s remaining arguments and
conclude that they are without merit. For the foregoing
reasons, the judgment of the district court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

9a
Appendix B
Appendix B — MEMORANDUM
AND ORDER
of the united states DISTRICT COURT FOR
THE EASTERN DISTRICT OF NEW YORK,
FILED MARCH 26, 2019
United States District Court
Eastern District of New York
17-CV-7090 (SJF) (AKT)
GRACE INTERNATIONAL ASSEMBLY OF GOD,
Plaintiff,
v.
GENNARO FESTA and FALCON GENERAL
CONSTRUCTION SERVICES, INC.,
Defendants.
March 26, 2019, Decided
March 26, 2019, Filed
MEMORANDUM AND ORDER
FEUERSTEIN, District Judge:
Plaintiff Grace International Assembly of God
(“Plaintiff” or “Grace”) commenced this case against
defendants Gennaro Festa (“Festa”) and Falcon General
Construction Services, Inc. (“Falcon”) (collectively,
“Defendants”) asserting claims against Festa pursuant
to the Racketeer Influenced and Corrupt Organizations

10a
Appendix B
Act (“RICO”), 18 U.S.C. § 1961 et seq., against Falcon for
breach of contract and negligence under state law, and
against both Defendants for fraud and breach of trust
under state law. Defendants have moved to dismiss the
complaint pursuant to Rule 12(b)(6) of the Federal Rules
of Civil Procedure. See Motion, Docket Entry (“DE”) [25].
Plaintiff opposes the motion. For the reasons set forth
below, the motion is granted, and the case dismissed.
I.

BACKGROUND
A. 	Factual Background

The following facts are taken from the amended
complaint (“Am. Compl.”), DE [22], and are assumed to
be true for purposes of this motion. In addition, various
documents have been incorporated by reference in, and
attached to, the amended complaint including: a contract
dated May 19, 2014, (the “Contract”), DE [22-1], and; eleven
(11) documents entitled “Application and Certification for
Payment” (“A&C”), numbered one (1) through eleven (11)
and dated periodically from August 1, 2015 to August 19,
2016. DE [22-2 & 22-3].
Grace is a New York religious corporation that
maintains a place of worship at 172 Willis Avenue, Mineola,
New York (the “Premises”). Am. Compl. ¶ 1. Falcon, a
general construction contractor, is a New York corporation,
and Festa is the President and sole shareholder of Falcon.
Id. ¶¶3-5. Prior to 2014, the church located on the Premises
consisted of two attached buildings: the sanctuary and a
fellowship hall. Id. ¶8. In or about February 2014, Falcon

11a
Appendix B
agreed to act as general contractor on a project (the
“Project”) to: (1) refurbish the existing sanctuary, which
was to become the fellowship hall; and (2) demolish the
existing fellowship hall and build a new sanctuary in its
place. Id. ¶9.
On or about February 4, 2014, Festa met with Grace’s
governing Council and its minister, Pastor Wilson. Am.
Compl. ¶18. During that meeting Festa represented that
steel shop drawings (“Steel Shop Drawings”) would be
prepared by American Buildings Company (“ABC”), a
Georgia company that would also provide prefabricated
steel. Id. ¶18. The Steel Shop Drawings would be ordered
from ABC by American Building Services of New York,
Inc. (“ABS”), an entity that the Amended Complaint
refers to alternatively as either “an agent of Falcon’s,”
id. ¶18(b), or “Festa’s agent.” Id. ¶¶20(a); 212(a). There
are no factual allegations to support this legal conclusion.
Plaintiff further alleges that ABC and ABS entered
into an agreement, id. ¶20(a), but provides no specifics
regarding the timing or scope of that agreement.
On or about May 14, 2014, Grace and Falcon entered
into a written Contract for the Project. Id. ¶10 & Ex. A.
The Contract provides for the scope of work including,
labor and materials, for a contract amount of $900,000.
Contract, Ex. A. Plaintiff alleges that over the course of
the Project, Festa, on behalf of Falcon, made numerous
fraudulent misrepresentations which Grace organizes into
eleven (11) categories. The alleged misrepresentations
pertain to: (1) the Steel Shop Drawings, Am. Compl. ¶¶1827; (2) Steel Building Frame, id. ¶¶ 28-46; (3) Steel for

12a
Appendix B
First Floor Framing, id. ¶¶47-55; (4) Steel for Mezzanine
Framing, id. ¶¶56-60; (5) Sewer Pump, id. ¶¶61-68; (6)
Plumbing Fixtures, id. ¶¶69-80; (7) Electric Utility Room,
id. ¶¶81-92; (8) Drywall Trim and Hardware, id. ¶¶9398; (9) Finishes, Paint, and Ceramic Tile, id. ¶¶99-104;
(10) Electric Fan Outlets, id. ¶¶105-10; and (11) “General
Conditions: Insurance, Labor.” Id. ¶¶111-54.
Regarding the Steel Shop Drawings, Festa, having
told the Council that ABC required payment in advance,
invoiced Grace for $24,500, which Grace paid on February
27, 2014. Am. Compl. ¶¶18(d)(e), 23. In 2017, Grace learned
that no advance payment was required, that Festa knew
no advance payment was required, and that ABC had
received only $6,000.00. Id. ¶20. Grace alleges that the
balance of the amount ostensibly paid for the Steel Shop
Drawings was not used on the Project. Id. ¶24.
The alleged misrepresentations regarding the Steel
Building Frame include that Festa attended at least four
meetings with members of the Council in April and May
2014 during which he made oral representations that
Grace must make an initial payment of $116,760 to be
used to purchase building frame steel from ABC. Am.
Compl. ¶28. Festa submitted an invoice to Grace for
$116,760, which Grace paid by check dated May 29, 2014.
Id. ¶¶29, 31. Grace alleges that Festa had no intention
of using these monies to purchase steel. Id. ¶30. During
eight (8) meetings held between June 3, 2014 and August
2, 2016, Festa represented to Grace Council members
and Pastor Wilson that the monies had been paid to ABC
“and that the steel for which it was to be used had been

13a
Appendix B
ordered, secured, and stored somewhere.” Id. ¶32. The
same representation was made in multiple meetings from
January 2017 through March 2017. Id. ¶33. The Building
Frame Steel was never delivered, stored or installed at
the Premises, and Plaintiff alleges, upon information and
belief, that the steel was never purchased “from ABC or
anyone else.” Id. ¶35.
Detailed recitation of the allegations regarding the
nine remaining categories of alleged misrepresentations
is unnecessary to resolve the motion before the Court.
Suffice it to say that for each category, Grace alleges that
Festa, on behalf of Falcon, made misrepresentations,
either verbally or through submission of the A&Cs,
regarding the purchase of materials and/or the progress
of the construction, and that Grace relied on those
misrepresentations and continued to make payments.
From August 1, 2015 to August 19, 2016, Falcon submitted
eleven (11) separate A&Cs to Grace requesting payments
totaling $359,950. Am. Compl. Ex. A. In addition, the
Amended Complaint contains allegations regarding other
invoices submitted by Falcon and paid by Grace. See, e.g.,
Am. Compl. ¶19 (invoice 211001 for $24,500); ¶29 (invoice
2 for $116,760); ¶61 (invoice 6 for $6,200); ¶62 (invoice 12
for $1,200).
Falcon also subcontracted out work on the Project
to various subcontractors including Amano Contracting,
Inc. (“Amano), which was to perform demolition of the
existing fellowship hall, removal of fill and debris, and
excavation of the foundation for the new sanctuary. Am.
Compl. ¶155. Grace alleges that Amano fully performed
under the subcontract, but Falcon did not pay it any of the

14a
Appendix B
$74,000 owed for that work. Id. ¶156. On June 16, 2016,
Amano filed a notice of lien against the Premises. Id. ¶157.
Falcon ceased performing work on the Premises in July
2016 and “effectively abandoned the Project.” Id. ¶158. In
late August 2016, Grace was advised about the notice of
lien by Heritage Investment Services Fund (“Heritage”),
a lender that had been providing funds to Grace to finance
the Project. Id. ¶159.1 Heritage ceased lending money to
Grace for the Project in late August 2016. Id. ¶160. Grace
terminated Falcon as general contractor on the Project
on or about April 26, 2017 “after investigating the facts so
as to uncover Festa and Falcon’s fraud.” Id. ¶161. Plaintiff
alleges that at the time of its termination, Falcon had
completed only 38.5% of the Project. Id. ¶164.
B. RICO Allegations
Plaintiff alleges that Defendants perpetrated two
interrelated fraudulent schemes, which it has named the
“Project Invoicing Fraud Scheme” and the “Subcontractor
Nonpayment Fraud Scheme.” In the Project Invoicing
Fraud Scheme, Defendants “defraud[ed] Grace into
paying for aspects of the Project, including the purchase
of materials, that either were not performed or purchased
at all or had been performed or purchased only in part.”
Am. Compl. ¶11. According to Plaintiff, the alleged victims
of this scheme include Grace, the institution lending
Grace money for the Project, and the subcontractors and
materialmen retained by Falcon. Id.
1. Although this paragraph alleges that Heritage had been
providing funds to Falcon, Plaintiff notes in its Memorandum of
Law that this is a mistake and that Heritage was Grace’s lender. Pl.
Mem. of Law at 18, n.5.

15a
Appendix B
The Subcontractor Nonpayment Fraud Scheme
relates to Falcon’s alleged nonpayment or partial payment
to subcontractors or materialmen for labor or materials
while misrepresenting to Grace that those subcontractors
and materialmen had been paid in full. Am. Compl. ¶12.
Grace acknowledges that it “is not claiming injury from
the Subcontractor Nonpayment Fraud Scheme” but
is including these allegations “simply to demonstrate
additional victims of Festa’s misconduct, and additional
facts concerning Festa’s pattern of racketeering activity.”
Id. Grace contends that Falcon sought monies from Grace
to pay certain subcontractors, Grace made those payments
to Falcon, and Falcon failed to pay the subcontractors.
In addition to failing to pay its subcontractor Amano,
Plaintiff alleges that Falcon paid Ace-Tec Enterprises,
Inc. (“Ace-Tec”) only $30,000 of the $79,000 it is owed, see
id. ¶¶180-88, did not pay Liberty Pipe, Inc. (“Liberty”)
$3,000 it is owed. Id. ¶¶190-99.
Grace alleges that Falcon is a RICO enterprise,
and that it has engaged in activities affecting interstate
commerce such as its purchase of: (a) the steel shop
drawings from ABC, a Georgia corporation, through ABS;
(b) steel from Ace-Tec, which was originally shipped from
Pennsylvania and/or North Carolina; (c) materials and
services from ABS, located in New Jersey; (d) materials
from Home Depot and Staples, national chain stores. Am.
Compl. ¶206.
Regarding the Project Invoicing Scheme, Grace
identifies thirteen (13) predicate acts of wire fraud as
defined by 18 U.S.C. §1343 including that Festa caused the

16a
Appendix B
Steel Shop Drawings to be sent by e-mail from ABC in
Georgia to ABS in New York on or about March 22, 2014
(the “First Predicate Act”). Am. Compl. ¶¶211-12. Festa
knew, or it was reasonably foreseeable, that the drawings
would be transmitted electronically.
Grace further enumerates twelve (12) wire transfers
of monies that Festa “caused to be sent”:
• From Grace in New York to AG Financial, an
umbrella company holding monies for Grace located
in Missouri—three (3) written requests by facsimile
requesting the wire transfer of funds into Grace’s
checking account in New York;
• From AG Financial in Missouri to Grace in New
York—three (3) wire transfers of the monies
corresponding to Grace’s requests as referenced
in the preceding paragraph;
• From Grace in New York to Heritage, a lending
institution in Pennsylvania—three (3) written
requests transmitted by facsimile requesting the
wire transfer of funds to Grace’s checking account
in New York;
• From Heritage in Pennsylvania to Grace in
New York—three (3) wire transfers of monies
corresponding to Grace’s requests as referenced
in the preceding paragraph.

17a
Appendix B
Am. Compl. ¶¶214-15. Festa caused these uses of the
interstate wires “in that he knew, or it was reasonably
foreseeable, that such uses would occur in the ordinary
course of business.” Id. ¶216. The first of these transmissions
took place on or about May 7, 2015, and the last on or about
August 23, 2016.
Regarding the Subcontractor Nonpayment Fraud
Scheme, Grace identifies predicate acts of money
laundering and misappropriation of trust funds, alleging
that the monies Grace paid to Falcon which were to be
paid to the latter’s subcontractors and materialmen
constituted “trust funds within the meaning of Article 3-A
of the Lien Law” in New York, Am. Compl. ¶223, and that
Falcon’s failure to pay trust claims by its subcontractors
violates New York state law and constitutes grand larceny
pursuant to New York Penal Law §155.30. Grace claims
that the predicate acts constitute a pattern of racketeering
related to the same Project.
C. 	Procedural History
Plaintiff filed the complaint on December 5, 2017
alleging federal question jurisdiction based on the RICO
claim. The Clerk’s Office issued a notice of entry of default
on January 25, 2018, noting Defendants’ failure to appear.
Defendants moved to vacate the Clerk’s entry of default
shortly thereafter, and that motion was granted on April
10, 2018. Plaintiff filed its amended complaint on May 23,
2018, and Defendants filed the current motion to dismiss,
arguing that the amended complaint fails to state a civil
RICO claim.

18a
Appendix B
II. LEGAL STANDARDS
A.

Motion to Dismiss

Defendant seeks dismissal of the action pursuant to
Rule 12(b)(6) for failure to state a claim upon which relief
can be granted. The standards for analyzing a motion to
dismiss are well-established. The court must accept the
factual allegations in the complaints as true and draw all
reasonable inferences in favor of the plaintiff. Lundy v.
Catholic Health Sys. of Long Island Inc., 711 F.3d 106, 113
(2d Cir. 2013) (citations omitted). The court determines
“whether the ‘well-pleaded factual allegations,’ assumed
to be true, ‘plausibly give rise to an entitlement to relief.’”
Hayden v. Paterson, 594 F.3d 150, 161 (2d Cir. 2010)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 679, 129 S. Ct.
1937, 173 L. Ed. 2d 868 (2009)). “The plausibility standard
is not akin to a probability requirement, but it asks for
more than a sheer possibility that a defendant has acted
unlawfully.” Iqbal, 556 U.S at 678 (citing Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 556, 127 S. Ct. 1955, 167 L. Ed.
2d 929 (2007)).
The determination of “whether a complaint states
a plausible claim for relief” is a “context-specific task
that requires the reviewing court to draw on its judicial
experience and common sense.” Iqbal, 556 U.S at 679.
A pleading that does nothing more than recite bare
legal conclusions, however, is insufficient to “unlock the
doors of discovery.” Iqbal, 556 U.S. at 678-679; see also
Twombly, 550 U.S. at 555 (holding that a “formulaic
recitation of cause of action’s elements will not do. Factual

19a
Appendix B
allegations must be enough to raise a right to relief above
the speculative level.”). While Rule 8 does not require
“detailed factual allegations,” it does require more than
an “unadorned, the-defendant-unlawfully-harmed-me
accusation.” Id. at 678 (citing Twombly, 550 U.S. at 555).
B. Civil RICO Claims
“RICO’s private right of action is contained in 18
U.S.C. § 1964(c),” Bridge v. Phoenix Bond & Indem. Co.,
553 U.S. 639, 647, 128 S. Ct. 2131, 170 L. Ed. 2d 1012
(2008), which provides that, with an exception not relevant
here, “[a]ny person injured in his business or property by
reason of a violation of section 1962 of this chapter may
sue therefor in any appropriate United States district
court and shall recover threefold the damages he sustains
and the cost of the suit, including a reasonable attorney’s
fee[.]” 18 U.S.C. § 1964(c). The amended complaint alleges
that Festa violated §1962(c) of RICO, which provides in
pertinent part that “it shall be unlawful for any person
employed by or associated with any enterprise engaged
in, or the activities of which affect, interstate or foreign
commerce, to conduct or participate, directly or indirectly,
in the conduct of such enterprise’s affairs through a
pattern of racketeering activity....” 18 U.S.C. § 1962(c).
To state a claim under §1962(c), a plaintiff must allege:
“(1) that the defendant (2) through the commission of two
or more acts (3) constituting a ‘pattern’ (4) of ‘racketeering
activity’ (5) directly or indirectly ... participates in (6) an
‘enterprise’ (7) the activities of which affect interstate or
foreign commerce.” Moss v. Morgan Stanley, Inc., 719

20a
Appendix B
F.2d 5, 17 (2d Cir.1983). A plaintiff alleging a RICO claim
“only has standing if, and can only recover to the extent
that, he has been injured in his business or property by
the conduct constituting the violation.” Sedima, S.P.R.L.
v. Imrex Co., 473 U.S. 479, 496, 105 S. Ct. 3275, 87 L. Ed.
2d 346 (1985). A plaintiff must plead, at a minimum, “(1)
the defendant’s violation of § 1962, (2) an injury to the
plaintiff’s business or property, and (3) causation of the
injury by the defendant’s violation.” Commercial Cleaning
Servs., L.L.C. v. Colin Serv. Sys., Inc., 271 F.3d 374, 380
(2d Cir. 2001).
Racketeering activity “is defined to include a host
of so-called predicate acts,” Bridge, 553 U.S. at 647,
including “any act which is indictable under . . . section
1343 (relating to wire fraud).” 18 U.S.C. § 1961(a). 2 A
“pattern” of racketeering activity requires a showing of at
least two predicate acts of racketeering within ten years
of one another. 18 U.S.C. §1961(5).
Where a plaintiff alleges racketeering activity based
on mail or wire fraud, it “must prove three elements: (1)
scheme to defraud, including proof of intent; (2) money
or property as object of [the] scheme; (3) use of mails or
2. Wire fraud occurs whenever a person, “having devised or
intending to devise any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be transmitted
by means of wire, radio, or television communication in interstate or
foreign commerce, any writings, signs, signals, pictures, or sounds
for the purpose of executing such scheme or artifice....” 18 U.S.C.
§ 1343.

21a
Appendix B
wires to further the scheme.” K&D Corp. v. Concierge
Auctions, LLC, 2 F. Supp. 3d 525, 539 (S.D.N.Y. 2014)
(internal quotation marks and citation omitted). However,
“[g]iven the routine use of mail and wire communications
in business operations, . . . ‘RICO claims premised on mail
or wire fraud must be particularly scrutinized because
of the relative ease with which a plaintiff may mold a
RICO pattern from allegations that, upon closer scrutiny,
do not support it.’” Crawford v. Franklin Credit Mgmt.
Corp., 758 F.3d 473, 489 (2d Cir. 2014) (quoting Efron
v. Embassy Suites (Puerto Rico), Inc., 223 F.3d 12, 20
(1st Cir. 2000)); see also Bigsby v. Barclays Capital Real
Estate, Inc., 170 F. Supp. 3d 568, 575-76 (S.D.N.Y. 2016)
(noting that “predicate acts of mail and wire fraud merit
particular scrutiny . . . lest the courts allow the RICO
statute ‘to federalize garden-variety state common law
claims” (internal quotation marks and citations omitted));
Gross v. Waywell, 628 F. Supp. 2d 475, 493 (S.D.N.Y.
2009) (observing that “virtually every ordinary fraud
is carried out in some form by means of mail or wire
communication”).
In addition, where the predicate acts sound in fraud,
including wire fraud, the complaint must also satisfy the
provision in Rule 9(b) that “in all averments of fraud or
mistake, the circumstances constituting fraud or mistake
[must] be stated with particularity.” F ed. R. Civ. P.
9(b). To comply with Rule 9(b), “the complaint must: (1)
specify the statements that the plaintiff contends were
fraudulent, (2) identify the speaker, (3) state where and
when the statements were made, and (4) explain why the
statements were fraudulent.” Lerner v. Fleet Bank, N.A.,

22a
Appendix B
459 F.3d 273, 290 (2d Cir. 2006) (internal quotation marks
and citation omitted).
Defendants claim that the Amended Complaint fails
to state a claim for in that it fails to plausibly allege: (1) an
enterprise; (2) a pattern of racketeering; and (3) proximate
causation.
III.	DISCUSSION
A.

RICO
1. 	Enterprise

“[T]o establish liability under §1962(c), one must
allege and prove the existence of two distinct entities: (1) a
‘person’; and (2) an ‘enterprise’ that is not simply the same
‘person’ referred to be a different name.” Cedric Kushner
Promotions, Ltd., v. King, 533 U.S. 158, 161, 121 S. Ct.
2087, 150 L. Ed. 2d 198 (2001). Defendants argue that
Falcon, a corporate entity, and its President, Festa, are not
adequately distinct and cannot be both the “enterprise”
and the “person” necessary for RICO liability. Addressing
a similar factual scenario, the Supreme Court found that
“[t]he corporate owner/employee, a natural person, is
distinct from the corporation itself, a legally different
entity with different rights and responsibilities due to
its different legal status.” Cedric Kushner, 533 U.S. at
163. Thus, where an employee “conducts the affairs of a
corporation through illegal acts,” that employee may be the
RICO “person” separate and apart from the corporation
and “the employee and the corporation are different

23a
Appendix B
‘persons,’ even where the employee is the corporation’s sole
owner.” Id. Applying this precedent to the current case,
the Amended Complaint sufficiently alleges that Festa is
the “person” and Falcon is the “enterprise.”
2. 	Pattern of Racketeering
“To satisfy the “pattern” requirement, the factual
allegations must meet two standards: relatedness and
continuity. The pleadings must show that the predicate
acts asserted are related and amount to or pose a threat of
continuing criminal activity.” Gross, 628 F. Supp. 2d at 485.
“[T]hese two constituents of RICO’s pattern requirement
must be stated separately though in practice, their proof
will often overlap.” H.J. Inc. v. Northwestern Bell Tel. Co.,
492 U.S. 229, 239, 109 S. Ct. 2893, 106 L. Ed. 2d 195 (1989).
a.

Relatedness

“Predicate acts are ‘related’ for RICO purposes,
when they ‘have the same or similar purposes, results,
participants, victims, or methods of commission,
or other w ise a re inter related by disting uishing
characteristics and are not isolated events.’” Schlaifer
Nance & Co. v. Estate of Warhol, 119 F.3d 91, 97 (2d Cir
1997) (quoting H.J. Inc., 492 U.S. at 240). “A relationship
to show the existence of a pattern is indicated by temporal
proximity of the acts, by common goal, methodology, and
their repetition.” Cosmos Forms Ltd. v. Guardian Life
Ins. Co., 113 F.3d 308, 310 (2d Cir. 1997).

24a
Appendix B
Twelve of the thirteen alleged predicate acts consist
of six pairs of transactions — Grace’s request for funds
from a financial institution followed by that institution’s
forwarding of the requested funds — that occurred from
May 7, 2015 to August 23, 2016. The acts are repeated
and have the common goal of funding the Project, funding
which Plaintiff claims was wrongfully diverted by
Defendants. For the purposes of withstanding a motion
to dismiss, the amended complaint adequately alleges the
relatedness of these twelve acts.
The First Predicate Act, transmission of the Steel
Shop Drawings on or about March 22, 2014, is more
isolated and not clearly intertwined with the subsequent
acts. It occurs at the very beginning of the alleged scheme
and is temporally removed from the other acts, occurring
over a year before the next act. The methodology of
this act is also distinct as it concerns a transmission
between ABC, an entity unrelated to any party in this
litigation, to ABS. ABS is summarily alleged to be the
purported “agent” of Festa and/or Falcon, but there are
no allegations to support the legal conclusion that ABS
was acting as an agent. The nature of the First Predicate
Act is also different in that it involves the transmission
of technical materials and is not directly related to crux
of the scheme -- the transfer of funds. Plaintiff argues
that the transmission of the Steel Shop Drawings was
essential to the overall scheme since the Project could not
have progressed without them, implying that the First
Predicate Act was in furtherance of the common goal.
Drawing all inferences in Plaintiff’s favor, the Amended
Complaint plausibly alleges that the predicate acts are

25a
Appendix B
related. Relatedness of the predicate acts, however, “is
not alone enough to satisfy §1962’s pattern element.” H.J.
Inc., 492 U.S. at 240.
b.

Continuity

As to continuity, a “plaintiff in a RICO action must
allege either an open-ended pattern of racketeering
activity (i.e., past criminal conduct coupled with a threat
of future criminal conduct) or a closed-ended pattern of
racketeering activity (i.e., past criminal conduct extending
over a substantial period of time).” First Capital Asset
Mgmt., Inc. v. Satinwood, Inc., 385 F.3d 159, 180 (2d Cir.
2004) (internal quotation marks and citation omitted).
Grace claims that it has plausibly alleged both types of
continuity.
Closed ended continuity is demonstrated “over a
closed period by proving a series of related predicates over
a substantial period of time.” H.J. Inc., 492 U.S. at 242.
The length of the time period is significant, as the Second
Circuit “has never held a period of less than two years to
constitute a ‘substantial period of time’” for purposes of
establishing closed-ended continuity. De Falco v. Bernas,
244 F.3d 286, 321 (2d Cir. 2001) (citing cases); see generally
H.J. Inc., 492 U.S. at 242 (noting that given Congress’s
concern in RICO with long-term criminal conduct,
“[p]redicate acts extending over a few weeks or months
and threatening no future criminal conduct” do not
satisfy the pattern requirement). Including all the alleged
predicate acts, the scheme encompassed only twenty-nine
months; excluding the First Predicate Act, the time period
is less than eighteen months.

26a
Appendix B
The duration of the scheme is not the only consideration,
however, because while “closed-ended continuity is
primarily a temporal concept, other factors such as the
number and variety of predicate acts, the number of both
participants and victims, and the presence of separate
schemes are also relevant in determining whether closedended continuity exists.” De Falco, 244 F.3d at 321. “Courts
in the Second Circuit have generally held that where the
conduct at issue involves a limited number of perpetrators
and victims and a limited goal, the conduct is lacking in
closed-ended continuity.” FD Prop. Holding, Inc. v. U.S.
Traffic Corp., 206 F. Supp. 2d 362, 372 (E.D.N.Y. 2002);
see also Flexborrow LLC v. TD Auto Fin. LLC, 255 F.
Supp. 3d 406, 420 (E.D.N.Y. 2017); Ray Larsen Assocs.,
Inc. v. Nikko Am., Inc., No. 89 CIV. 2809, 1996 U.S. Dist.
LEXIS 11163, 1996 WL 442799, at *8 (S.D.N.Y. Aug. 6,
1996). Here, the scheme involved only two participants
(Festa and his company, Falcon), affected a small number
of victims (Grace), 3 and was limited in scope because it had
one goal — defrauding Grace of monies meant to be used
in the Project. Thus, even if the temporal component has
been satisfied, Plaintiff still would not have established
closed-ended continuity. See Bernstein v. Misk, 948 F.
Supp. 228, 238 (E.D.N.Y. 1997) (finding no closed-ended
continuity where acts took place over four and one half
years, but the criminal activity alleged “involved only one
major perpetrator who focused his activity on one group
3. Plaintiff urges the inclusion of three subcontractors, victims
of the Subcontractor Nonpayment Scheme, as part of this number.
As will be discussed infra, this alleged scheme is not well-pled.
The inclusion of these entities as victims, however, still leads to a
relatively small number of victims.

27a
Appendix B
of purchasers in a single, non-complex scheme to obtain
financing for a purchase of property and then default on
the loan”).
Plaintiff also argues that it has established open-ended
continuity by showing “past criminal conduct coupled with
a threat of future criminal conduct.” GICC Capital Corp.
v. Tech. Fin. Grp., Inc., 67 F.3d 463, 466 (2d Cir. 1995). “To
satisfy open-ended continuity, the plaintiff need not show
that the predicates extended over a substantial period of
time but must show that there was a threat of continuing
criminal activity beyond the period during which the
predicate acts were performed.” Cofacredit, S.A. v.
Windsor Plumbing Supply Co., 187 F.3d 229, 242 (2d Cir.
1999). “Where an inherently unlawful act is performed at
the behest of an enterprise whose business is racketeering
activity, there is a threat of continued criminal activity,
and thus open-ended continuity.” De Falco, 244 F.3d at
323. However, where the enterprise conducts primarily
legitimate business, “there must be some evidence from
which it may be inferred that the predicate acts were
the regular way of operating that business, or that the
nature of the predicate acts themselves implies a threat of
continued criminal activity.” Cofacredit, 187 F.3d at 243.
Plaintiff has not plausibly alleged that Defendants’
conduct poses an indefinite threat of continued criminal
activity. The alleged Project Invoicing Fraud Scheme
arises from a discrete, finite construction project. Plaintiff
argues that given the pace of work on the Project up to
the date Falcon ceased working, it calculates that the
Project would have taken an additional seventy-five (75)

28a
Appendix B
months to complete. Am. Compl. ¶243. Disregarding the
sheer conjecture of this argument, the length of time
required does not change the fact that the Project itself
was inherently terminable.4
Furthermore, Plaintiff has not demonstrated openended continuity by plausibly alleging that the predicate
acts were part of Falcon’s regular way of doing business. It
fails to allege how Falcon, a primarily legitimate business,
regularly operates in an allegedly illegal manner as to any
client other than Grace.
Assuming arguendo that Plaintiff had plausibly
alleged that Falcon regularly defrauded its clients, the
implied threat of continued criminal activity theory “only
applies to “‘inherently unlawful’ criminal activities in
pursuit of ‘inherently unlawful’ goals, such as murder,
obstruction of justice, narcotics trafficking, embezzlement,
extortion, bribery, and money laundering.” Albunio v. Int’l
Safety Grp., 15-CV-152, 2016 U.S. Dist. LEXIS 42427,
2016 WL 1267795, at *7 (S.D.N.Y. Mar. 30, 2016); see also
United States v. Aulicino, 44 F.3d 1102, 1111 (2d Cir. 1995)
(the threat of continuity is established “where the acts of
the defendant or the enterprise were inherently unlawful,
4. This is not to suggest that a construction project can never
be the basis for a civil RICO claim. See generally Procter & Gamble
Co. v. Big Apple Indus. Bldgs, Inc., 879 F.2d 10 (2d Cir. 1989). In
the current case, however, given the limited scope of the alleged
scheme, the lack of allegations regarding criminal conduct beyond
this Project, and the other factors discussed, the fact of the Project’s
discreteness further supports a finding that there is no viable RICO
claim.

29a
Appendix B
such as murder or obstruction of justice, and were in
pursuit of inherently unlawful goals, such as narcotics
trafficking or embezzlement” but “in cases concerning
alleged racketeering activity in furtherance of endeavors
that are not inherently unlawful, such as frauds in the sale
of property, the courts generally have found no threat of
continuing criminal activity”). Ordinary fraud supported
by wire fraud predicates are not “inherently unlawful” for
purposes of RICO continuity. See, e.g., Aulicino, 44 F.3d at
1111(“in cases concerning alleged racketeering activity in
furtherance of endeavors that are not inherently unlawful,
such as frauds in the sale of property, the courts generally
have found no threat of continuing criminal activity”);
Albunio, 2016 U.S. Dist. LEXIS 42427, 2016 WL 1267795,
at * 7 (“ordinary fraud is not considered ‘inherently
unlawful’”); Int’l Bhd. of Teamsters v. Carey, 297 F. Supp.
2d 706, 715 (S.D.N.Y. 2004) (noting that “fraud (the object
of which is by definition to obtain money or property from
others) has been held not to be ‘inherently unlawful’ in
the RICO continuity context”), aff’d sub nom. Int’l Bhd.
of Teamsters v. Blitz, 124 F. App’x 41 (2d Cir. 2005); In re
Basic Food Grp., LLC, No. 15-10892, 2016 Bankr. LEXIS
2463, 2016 WL 3677673, at *11 (Bankr. S.D.N.Y. July 1,
2016) (“[m]ail fraud and wire fraud are not ‘inherently
unlawful’”). Plaintiff does not claim that acts in addition
to wire fraud would occur, but rather alleges that “similar
predicate acts could continue to occur as long as work
on the Project continued.” Am. Compl. ¶242. As these
predicate acts were simply fraud, they are not inherently
unlawful for purposes of the continuity analysis.
Plaintiff tries to enhance its allegations by pointing to
the secondary Subcontractor Nonpayment Scheme in an

30a
Appendix B
attempt to make Defendants’ actions appear more complex
and to add to the “victim” count by including three
subcontractors. See Am. Compl. ¶165 (Grace asserts that
it does not seek damages for racketeering resulting from
the Subcontractor Nonpayment Scheme, but rather puts it
forth “to provide further evidence of Festa’s participation
in Falcon through a pattern of racketeering activity
and the existence of additional victims”). As a threshold
matter, the scope of the Subcontractor Nonpayment
Scheme is not alleged with any specificity. The Amended
Complaint identifies only three subcontractors who were
victims without stating that there were, or were not,
others at work on the Project. Thus, it is unclear whether
this purported scheme was employed uniformly against
all of Falcon’s subcontractors or rather was carried out
selectively against the three entities identified.
The allegations concerning the three subcontractors
identified are also conclusory and lack factual support.
As to each of three subcontractors, Amano, Ace-Tec, and
Liberty, the allegations follow the same formula. 5 First,
Grace claims there was a subcontract with Falcon. See,
e.g., Am. Compl. ¶180 (Grace alleges that Falcon had
subcontracted work to Ace-Tec, defining the “agreement”
as the “Ace-Tec Project Subcontract”). None of the
purported subcontracts is provided with the Amended
Complaint. Without reference to any provision in the
alleged subcontract in question or any other source of its
information, Grace alleges that each subcontractor was to
5. For the sake of brevity, an example from only one of the
subcontractors, Ace-Tec, is provided here for illustration.

31a
Appendix B
perform specific acts or provide specific materials. Grace
then points to an A&C submitted for payment by Falcon,
and identifies acts or materials on the A&C that it claims
were, in fact, performed or provided by a subcontractor.
See, e.g., id. ¶ 182 (citing A&C No. 10, Grace claims that
work performed under the categories “steel for first floor
framing” and Steel for Mezzanine framing” was done by
Ace-Tec pursuant to the subcontract). The name of the
purported subcontractor, however, does not appear on
any of the A&Cs. Finally, Grace summarily concludes
that although it paid the amount specified on the A&C
to Falcon, the subcontractor remained unpaid. See, e.g.,
id. ¶¶185-89 (Grace paid Falcon for the work in the A&C,
Ace-Tec was not paid in full, there Ace-Tec “was a victim
of the Subcontract Nonpayment Scheme.”).
This thinly pled scheme does not provide support
to Plaintiff’s claim that Defendants were involved in
racketeering activity. Simply put, Grace’s allegations
throughout the Amended Complaint, which may state law
fraud or contract violations, do not constitute the type
of long-term, criminal conduct meant to be remedied by
RICO.
B. Remaining State Law Claims
The remaining claims asserted by Plaintiff — breach
of contract, negligence, fraud and breach of trust — all
arise under state law. A court may decline to exercise
supplemental jurisdiction over state law claims if it
“has dismissed all claims over which it has original
jurisdiction.” 28 U.S.C. § 1367 (c)(3). The decision whether

32a
Appendix B
to exercise supplemental jurisdiction is discretionary.
Catzin v. Thank You & Good Luck Corp., 899 F.3d 77,
85 (2d Cir. 2018). In making this determination, the
court “must still meaningfully balance the supplemental
jurisdiction factors.” Id. However, “in the usual case in
which all federal-law claims are eliminated before trial,
the balance of factors to be considered under the pendent
jurisdiction doctrine—judicial economy, convenience,
fairness, and comity—will point toward declining to
exercise jurisdiction over the remaining state-law claims.”
Valencia ex rel. Franco v. Lee, 316 F.3d 299, 305 (2d Cir.
2003) (quoting Carnegie-Mellon Univ. v. Cohill, 484 U.S.
343, 349-50, 108 S. Ct. 614, 98 L. Ed. 2d 720 (1988)).
Upon consideration of all relevant factors, this Court
declines to exercise supplemental jurisdiction over the
remaining claims. Accordingly, any state law claims
asserted by plaintiff are dismissed without prejudice
pursuant to 28 U.S.C. § 1367(c)(3).
IV. CONCLUSION
For the foregoing reasons, Defendant’s motion to
dismiss, DE [25] is granted and the case dismissed.
SO ORDERED.
/s/				
Sandra J. Feuerstein
United States District Judge
Dated:
March 26, 2019
	Central Islip, New York

33a
APPENDIX C —Appendix
DENIAL COF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
FEBRUARY 12, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No: 19-1101
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 12th day of February, two thousand
twenty.
GRACE INTERNATIONAL ASSEMBLY OF GOD,
Plaintiff-Appellant,
v.
GENNARO FESTA, FALCON GENERAL
CONSTRUCTION SERVICES, INC.,
Defendants-Appellees.
ORDER
Appellant, Grace International Assembly of God, filed
a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal
has considered the request for panel rehearing, and the
active members of the Court have considered the request
for rehearing en banc.

34a
Appendix C
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/

35a
Appendix D PROVISIONS AND
APPENDIX D — STATUTORY
FEDERAL COURT RULES INVOLVED

STATUTORY PROVISIONS AND FEDERAL
COURT RULES INVOLVED
18 U.S.C. § 1961.
As used in this chapter—
(1) “racketeering activity” means . . . (B) any act
which is indictable under any of the following
provisions of title 18, United States Code: . . .
section 1343 (relating to wire fraud); . . . section
1956 (relating to the laundering of monetary
instruments) . . .
***
(5) “pattern of racketeering activity” requires
at least two acts of racketeering activity, one
of which occurred after the effective date of
this chapter and the last of which occurred
within ten years (excluding any period of
imprisonment) after the commission of a prior
act of racketeering activity . . .
18 U.S.C. § 1962.
(c) It shall be unlawful for any person employed
by or associated with any enterprise engaged
in, or the activities of which affect, interstate

36a
Appendix D
or foreign commerce, to conduct or participate,
directly or indirectly, in the conduct of such
enterprise’s affairs through a pattern of
racketeering activity or collection of unlawful
debt.
18 U.S.C. § 1964.
(c) Any person injured in his business or
property by reason of a violation of section
1962 of this chapter may sue therefor in any
appropriate United States district court
and shall recover threefold the damages he
sustains and the cost of the suit, including
a reasonable attorney’s fee, except that no
person may rely upon any conduct that would
have been actionable as fraud in the purchase
or sale of securities to establish a violation of
section 1962. The exception contained in the
preceding sentence does not apply to an action
against any person that is criminally convicted
in connection with the fraud, in which case the
statute of limitations shall start to run on the
date on which the conviction becomes final.
18 U.S.C. § 1343.
Whoever, having devised or intending to
devise any scheme or artifice to defraud, or
for obtaining money or property by means of
false or fraudulent pretenses, representations,
or promises, transmits or causes to be

37a
Appendix D
transmitted by means of w ire, radio, or
television communication in interstate or
foreign commerce, any writings, signs, signals,
pictures, or sounds for the purpose of executing
such scheme or artifice, shall be fined under this
title or imprisoned not more than 20 years, or
both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are
defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance
Act (42 U.S.C. 5122)), or affects a financial
institution, such person shall be fined not more
than $1,000,000 or imprisoned not more than 30
years, or both.
18 U.S.C. § 1956.
(a)(1) Whoever, knowing that the property
involved in a financial transaction represents
the proceeds of some form of unlawful activity,
conducts or attempts to conduct such a financial
transaction which in fact involves the proceeds
of specified unlawful activity—
***
(B) knowing that the transaction is designed
in whole or in part--

38a
Appendix D
(i) to conceal or disguise the nature, the
location, the source, the ownership, or the
control of the proceeds of specified unlawful
activity;
***
shall be sentenced to a fine of not more than
$500,000 or twice the value of the property
involved in the transaction, whichever is
greater, or imprisonment for not more than
twenty years, or both. For purposes of this
paragraph, a financial transaction shall be
considered to be one involving the proceeds
of specified unlawful activity if it is part of
a set of parallel or dependent transactions,
any one of which involves the proceeds of
specified unlawful activity, and all of which
are part of a single plan or arrangement.
***
(c) As used in this section—
(1) the term “knowing that the property involved
in a financial transaction represents the proceeds
of some form of unlawful activity” means that
the person knew the property involved in the
transaction represented proceeds from some
form, though not necessarily which form, of
activity that constitutes a felony under State,
Federal, or foreign law, regardless of whether
or not such activity is specified in paragraph (7);

39a
Appendix D
(2) the term “conducts” includes initiating,
concluding, or participating in initiating, or
concluding a transaction;
(3) the term “transaction” includes a purchase,
sale, loan, pledge, gift, transfer, delivery, or
other disposition, and with respect to a financial
institution includes a deposit, withdrawal,
transfer between accounts, exchange of currency,
loan, extension of credit, purchase or sale of
any stock, bond, certificate of deposit, or other
monetary instrument, use of a safe deposit box,
or any other payment, transfer, or delivery by,
through, or to a financial institution, by whatever
means effected;
(4) the term “financial transaction” means (A) a
transaction which in any way or degree affects
interstate or foreign commerce (i) involving the
movement of funds by wire or other means or
(ii) involving one or more monetary instruments,
or (iii) involving the transfer of title to any real
property, vehicle, vessel, or aircraft, or (B)
a transaction involving the use of a financial
institution which is engaged in, or the activities
of which affect, interstate or foreign commerce
in any way or degree;
(5) the term “monetary instruments” means (i)
coin or currency of the United States or of any
other country, travelers’ checks, personal checks,
bank checks, and money orders, or (ii) investment

40a
Appendix D
securities or negotiable instruments, in bearer
form or otherwise in such form that title thereto
passes upon delivery;
***
(7) the term “specified unlawful activity”
means-(A) any act or activity constituting an
offense listed in section 1961(1) of this
title except an act which is indictable
under subchapter II of chapter 53 of
title 31;
Fed. R. Civ. P. 12.
(b) How to Present Defenses. Every defense
to a claim for relief in any pleading must be
asserted in the responsive pleading if one is
required. But a party may assert the following
defenses by motion:
***
(6) failure to state a claim upon which relief
can be granted;
***
A motion asserting any of these defenses
must be made before pleading if a responsive
pleading is allowed. . . .

41a
Appendix D
N.Y. Lien Law § 70.
1. The funds described in this section . . .
received by a contractor under or in connection
with a contract for an improvement of real
property, . . . shall constitute assets of a trust
for the purposes provided in section seventyone of this chapter. . . .
2. . . . The funds received by a contractor . . .
and the rights of action with respect thereto,
under or in connection with each contract . . .,
shall be a separate trust and the contractor . .
. shall be the trustee thereof.
3. Every such trust shall commence at the time
when any asset thereof comes into existence,
whether or not there shall be at that time any
beneficiary of the trust. . . . The trust of which
a contractor or subcontractor is trustee shall
continue with respect to every asset of the trust
until every trust claim arising at any time prior
to the completion of the contract or subcontract
has been paid or discharged, or until all such
assets have been applied for the purposes of
the trust. . . .
***
6. The assets of the trust of which a contractor
is trustee are the funds received by him and his
rights of action for payment thereof

42a
Appendix D
(a) under the contract for the improvement
of real property, or home improvement or
the public improvement;
***
N.Y. Lien Law § 71.
2. The trust assets of which a contractor or
subcontractor is trustee shall be held and applied
for the following expenditures arising out of
the improvement of real property, including
home improvement or public improvement and
incurred in the performance of his contract or
subcontract, as the case may be:
(a) payment of claims of subcontractors,
architects, engineers, surveyors, laborers
and materialmen;
(b) payment of the amount of taxes based
on payrolls including such persons and
withheld or required to be withheld and
taxes based on the purchase price or value
of materials or equipment required to be
installed or furnished in connection with the
performance of the improvement;
(c) payment of taxes and unemployment
insurance and other contributions due by
reason of the employment out of which such
claims arose;

43a
Appendix D
(d) pay ment of any benef its or wage
supplements, or the amounts necessary
to provide such benefits or furnish such
supplements, to the extent that the trustee,
as employer, is obligated to pay or provide
such benefits or furnish such supplements
by any agreement to which he is a party;
(e) payment of premiums on a surety
bond or bonds filed and premiums on
insurance accrued during the making of the
improvement, including home improvement,
or public improvement;
(f) payment to which the owner is entitled
pursuant to the provisions of section
seventy-one-a of this chapter.
3. * * *
(b) With respect to the trusts of which a
contractor or subcontractor is trustee,
“trust claims” means claims arising at any
time for payments for which the trustee is
authorized to use trust funds as provided in
subdivision two of this section.
***

44a
Appendix D
N.Y. Lien Law § 72.
1. Any transaction by which any trust asset is
paid, transferred or applied for any purpose
other than a purpose of the trust as stated in
subdivision one or subdivision two of section
seventy-one, before payment or discharge of
all trust claims with respect to the trust, is a
diversion of trust assets, whether or not there
are trust claims in existence at the time of the
transaction, and if the diversion occurs by the
voluntary act of the trustee or by his consent
such act or consent is a breach of trust.
***
N.Y. Lien Law § 79-a.
1. Any trustee of a trust arising under this
article, and any officer, director or agent of
such trustee, who applies or consents to the
application of trust funds received by the
trustee as money or an instrument for the
payment of money for any purpose other than
the trust purposes of that trust, as defined in
section seventy-one, is guilty of larceny and
punishable as provided in the penal law if
***
(b) such funds were received by the trustee
as contractor or subcontractor, as such

45a
Appendix D
terms are used in article three-a of this
chapter, and the trustee fails to pay, within
thirty-one days of the time it is due, any
trust claim arising at any time; provided,
however, that if the trustee who received
such funds as contractor or sub-contractor
disputes in good faith the existence, validity
or amount of a trust claim or disputes that
it is due, the application of trust funds for
a purpose other than a trust purpose, or
the consent to such application, shall not be
deemed larceny by reason of failure to pay
the disputed claim within thirty-one days of
the date when it is due if the trustee pays
such claim within thirty-one days after the
final determination of such dispute.
N.Y. Penal Law § 155.30.
A person is guilty of grand larceny in the fourth
degree when he steals property and when:
1. The value of the property exceeds one
thousand dollars;
***
Grand larceny in the fourth degree is a class
E felony.

46a
Appendix D
N.Y. Penal Law § 210.05.
A person is guilty of perjury in the third degree
when he swears falsely.
Perjury in the third degree is a class A misdemeanor.

